<html>
<title> - OPEN HEARING: ELECTION SECURITY</title>
<body><pre>[Senate Hearing 115-347]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-347

                    OPEN HEARING: ELECTION SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, MARCH 21, 2018

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-480 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cea9bea18eadbbbdbaa6aba2bee0ada1a3e0">[email&#160;protected]</a>                     
                    
                 
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                               
                               
                               CONTENTS

                              ----------                              

                             MARCH 21, 2018

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     2

                               WITNESSES
                                Panel 1

Nielsen, Kirstjen, Secretary, Department of Homeland Security....     4
    Prepared statement...........................................     7
Johnson, Jeh Charles, former Secretary, Department of Homeland 
  Security.......................................................    14
    Prepared statement...........................................    15

                                Panel 2

Manfra, Jeanette, Assistant Secretary, National Protection and 
  Programs Directorate, Office of Cyber Security and 
  Communications, Department of Homeland Security................    48
Condos, Jim, Secretary of State, State of Vermont................    50
    Prepared statement...........................................    52
Cohen, Amy, Executive Director, National Association of State 
  Election Directors.............................................    57
    Prepared statement...........................................    61
Rosenbach, Eric, Co-Director, Belfer Center for Science and 
  International Affairs, Harvard Kennedy School..................    66
    Prepared statement...........................................    69

                         SUPPLEMENTAL MATERIAL

Prepared Statement of Thomas Hicks, Chairman, U.S. Election 
  Assistance Commission..........................................    98

 
                    OPEN HEARING: ELECTION SECURITY

                              ----------                              


                       WEDNESDAY, MARCH 21, 2018

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Burr, Warner, Risch, Rubio, Collins, Blunt, 
Lankford, Cotton, Cornyn, Feinstein, Wyden, Heinrich, King, 
Manchin, Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order, and 
at the beginning of this hearing I would like to thank all the 
members, the witnesses, the press, and those visitors that we 
have today, with the inclement weather that was predicted and 
some has fallen. We thought it was important to continue this 
hearing, so I'm grateful to each of our witnesses. And to those 
that couldn't make it because of flights today, we have tried 
to adjust so we've got the appropriate witnesses for the second 
panel as well.
    Today the committee convenes the first open hearing to 
reflect the progress and preliminary recommendations and 
findings of our investigation into Russia's attempt to 
interfere in the 2016 U.S. elections. I'd like to welcome our 
two distinguished witnesses: Secretary of Homeland Security 
Kirstjen Nielsen; and former Secretary of Homeland Security Jeh 
Johnson. Jeh, I am grateful for the service that you provided 
to your country in a number of places. And, Secretary Nielsen, 
I have enjoyed very much the time that you have been there and 
look forward to what we can accomplish between this committee 
and the Department of Homeland Security in the future.
    I want to thank both of you for being here--for being here 
together, which I think is unprecedented, and I am grateful to 
the Administration for agreeing. It speaks to the importance of 
the issue and sends a message that transcends partisanship.
    The Vice Chairman and I asked the two of you to appear 
together to tell the story of what happened in 2016, how the 
Department reacted then and how it has evolved and what it is 
doing today. I think your collective remarks will show the 
remarkable evolution of an agency that is playing an 
increasingly important role to support the states.
    When this cyber threat surfaced in 2016, many struggled to 
understand the attack, the intentions behind it, and how to 
respond. By the beginning of 2018, however, DHS has made great 
strides towards better understanding elections, better 
understanding the states, and providing assistance that makes a 
difference to the security of our elections.
    But there's more to do. There's a long wait time for DHS 
premier services. States are still not getting all the 
information they feel they need to secure their systems. The 
Department's ability to collect all the information needed to 
fully understand the problem is an open question, and 
attributing cyber attacks quickly and authoritatively is a 
continuing challenge.
    Secretary Nielsen, as you appropriately note in your 
statement, the administration of elections is the 
responsibility of the State and local officials. And the 
support your agency provides is on a voluntary basis. What 
we've learned is that states will only engage with the 
Department if they feel there's value. And I'm confident that 
the customer service, if you can call it that, and the value 
you're providing to your State partners is improving every 
single day.
    Securing our elections requires immediate action and the 
urgency is reflected in the committee's recommendations 
released yesterday. We've convened today's hearing, in the 
midst of a snowstorm of sorts, to speak to the American people 
publicly about the threat posed by Russia and the efforts by 
our Federal, State, and local governments to protect against 
it.
    This issue is urgent. If we start to fix these problems 
tomorrow, we still might not be in time to save the system for 
2016 and 2020.
    I understand, Secretary Nielsen, you have a hard stop, 
something about a Cabinet meeting, and we respect those Cabinet 
meetings when the President calls it. So in the interest of 
time, I will end there and I will turn to the Vice Chairman for 
any remarks he might have.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. I'd like to 
welcome the witnesses as well.
    Today's hearing comes at a critical time. The committee 
remains in the midst of our bipartisan investigation into the 
Russian attacks during the 2016 election, and we still have 
more work to do. However, we as a committee felt it was 
important to move out our initial findings and recommendations 
on securing our election infrastructure, given the upcoming 
elections in November.
    Our main question today is, how do we protect 2018 
elections? And the threat is real and growing. During the 2016 
campaign, we saw unprecedented targeting of election 
infrastructure by Russian actors. Russian hackers were able to 
penetrate Illinois' voter registration database and access 
90,000 voter registration records. They also attempted to 
target the election systems of at least 20 other states. The 
intelligence community's assessment last January concluded that 
Russia secured and maintained access to multiple elements of 
U.S. State and local election boards.
    The truth is clear that 2016 will not be the last of their 
attempts. Just weeks ago, we heard from all our top 
intelligence officials testifying before this committee that 
the Russians will continue to attack our elections. 
Unfortunately, there are signs that the Kremlin is becoming 
more brazen. As we saw recently, the Putin regime was behind an 
assassination attempt on European soil with a prohibited 
military-grade nerve agent. This is obviously not the action of 
a regime that will be easily deterred.
    So how are we prepared to come against this threat that we 
know is coming again? Elections at all levels are central to 
our democracy, to our institutions, and to our government's 
legitimacy, and I remain concerned that we're still not fully 
prepared.
    Candidly--and I've shared this with both of you--I was 
disappointed on how the Department of Homeland Security, the 
primary U.S. government agency responsible for election 
security, approached this issue early on. During the 2016 
election, officials at both the Federal and State level were 
caught flat-footed, and the follow-up from the new 
Administration was not much better.
    Last June we heard from DHS, FBI, and State election 
officials about the threat to our election systems, which, 
based upon Secretary Johnson's earlier actions, DHS considers 
part of our Nation's critical infrastructure. Despite evidence 
of interference, the Federal Government and the states had 
barely communicated about strengthening our defenses. It was 
not until the fall of 2017 that DHS even fully notified the 
states that they had been potential targets. And unfortunately, 
that was an issue that members of this committee, bipartisan, 
stressed in our hearing last June. Candidly, we have to improve 
those communications.
    But clearly, more must be done, from hardening our election 
registration and voting systems, to ensuring that voting 
machines have backup paper ballots, to instituting audits and 
providing additional Federal assistance to those states that 
request it. One area I know that we're not going to talk about 
today, but I think does need additional investigation, is how 
we make sure that the ultimate startups, campaigns, have to 
practice basic cyber security.
    The threat is real and the need to act is urgent. We need 
the Administration to accelerate its efforts. Perhaps most of 
all, we need a President who will acknowledge the gravity of 
this threat and lead a whole-of-society effort to harden our 
defenses and inoculate our society against Russia's malicious 
interference. The fact that the President did not even bring up 
the topic of our election security when he called Vladimir 
Putin to congratulate him on his victory in a precooked 
election I believe is extremely troubling.
    The good news is this problem is not a Democratic or 
Republican one, and I personally want to thank all the members 
of the committee on both sides of the aisle for the good work 
that they've done. We're going to hear from some of them who've 
been working on a set of recommendations, and Senator Rubio has 
also been working on a set of recommendations. We all have to 
get this done and we have to act quickly.
    Again, I am pleased to have both of the secretaries here. I 
know it's a little bit unprecedented. I thank them both for 
being here and thank them for getting through the storm.
    With that, Mr. Chairman, I look forward to our hearing.
    Chairman Burr. I thank the Vice Chairman.
    This morning we'll hear from Secretary Nielsen and 
Secretary Johnson. Their testimony will be followed up by 
questions of up to five minutes from members, recognizing first 
Senator Collins, followed by Heinrich, Lankford, Harris, the 
Chair, the Vice Chair, and then members based upon seniority 
after that.
    Having covered that, Secretary Nielsen, the floor is yours.

    STATEMENT OF KIRSTJEN NIELSEN, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Nielsen. Well, good morning. Thank you for having 
me here. I want to thank Chairman Burr, Vice Chairman Warner, 
and all the members of the committee for not only the 
opportunity to testify, but I really do want to thank you for 
your leadership. Your bipartisan efforts here to assess what we 
did, what we didn't do, what we can do better, what we can do 
better in partnership, really can't be overstated in terms of 
its importance, so I thank you for that.
    Before we begin, I just wanted to extend my thanks to the 
first responders who've been working around the clock in Texas 
on the package bombing case. At DHS we've been in close contact 
with those on the ground and, although the situation appears to 
be over, we urge the public to remain alert and report any 
suspicious activity or packages or devices.
    Over the course of nearly three weeks, at least seven 
explosive devices were encountered in and around the Austin 
area, with five of them unfortunately detonating. Our thoughts 
go out to the victims and their families, and our gratitude is 
extended to the front-line defenders who helped locate the 
alleged perpetrator.
    The suspect is now deceased, but the case is yet another 
stark reminder of the importance of both public vigilance and 
also how important it is for close Federal, State, and local 
coordination. That coordination is also relevant, clearly, to 
the issue we have before us today.
    In a democracy, citizens must have faith that their vote 
counts and is counted correctly. Recently, in the United States 
and around the globe, we have seen malicious foreign actors 
attempt to subvert democracy by taking action to influence 
voters and by exploiting vulnerabilities in cyber space to 
attack election systems.
    In 2016, we know that Russian actors targeted State 
election systems. We have no evidence that votes were changed 
as a result of their efforts. However, the threat of 
interference remains and we recognize that the 2018 midterm and 
future elections are clearly potential targets for Russian 
hacking attempts.
    Today we have a whole-of-government effort to improve the 
resilience and security of those systems, which is led by DHS 
with assistance from the Departments of Justice, the FBI, and 
the Office of the Director of National Intelligence. We are 
working with the vendor community and, most importantly, we are 
working in voluntary partnership with our State and local 
election partners.
    There is also a separate initiative to address efforts by 
foreign nationals to influence our elections through messaging, 
propaganda, and manipulation. I think this is also a very 
important topic. That effort is being led by the Department of 
Justice, the FBI, and the Department of State.
    While DHS will, of course, support this effort, I will let 
my colleagues discuss their work in that area, and instead 
today I look forward to discussing the work that the Department 
is doing to assist State and local officials to harden our 
election systems.
    Under our Constitution and laws, as has been mentioned by 
the Chairman and the Vice, the administration of elections is 
the responsibility of State and local officials. The 
Department's mission is to provide assistance and support to 
those officials in the form of advice, intelligence, technical 
support, incident response planning, with the ultimate goal of 
building a more resilient, redundant, and secure election 
enterprise.
    Our services are voluntary and not all election officials 
accept our offer of support. We continue to offer it; we 
continue to demonstrate its value. But in many cases, State and 
local officials have their own resources and simply don't 
require the assistance that we're offering.
    DHS typically offers a range of technical services. We'll 
go into some detail today about those. More than half of the 
states have signed up for our cyber hygiene scanning service, 
which is an automated remote scan that gives State and local 
officials a report identifying vulnerabilities and offering 
recommendations to mitigate them.
    We also provide, as I believe you all have noted, on-risk 
site--excuse me--on-site risk and vulnerability assessments. 
The assessments are more thorough. We do pen testing. It's a 
full report of vulnerability and recommendations, and over the 
past year we've increased the availability of these assessments 
and prioritized them.
    Information sharing is also critical. We share information 
directly with election officials through trusted third parties 
such as the Multi-State Information Sharing and Analysis 
Center, or MS-ISAC, and we look forward to the creation of the 
Election ISAC. The National Cybersecurity and Communications 
Integration Center, or the NCCIC, is the Department's hub for 
information-sharing activity.
    Actionable and timely information empowers election 
officials to make more risk-informed decisions. We must rapidly 
share information about potential compromises with the broader 
community so that everyone can defend their systems. This 
collective defense approach makes all election systems more 
secure.
    We're also working with State election officials to share 
classified information on specific threats, including 
sponsoring up to three officials per State with security 
clearances and providing one-day read-ins as needed when 
needed, as we did in mid-February for the secretaries of state 
and election directors. We are also working with the 
intelligence community to rapidly declassify information to 
share with our stakeholders.
    To be clear, there has been a learning curve on the sharing 
of information. The election systems in states are often owned 
and operated by different systems: the secretary of state, the 
State CIO, in some cases the State CSO, the governor's office, 
or even counties. While appropriate technical information and 
notifications were shared with system owners, we have taken 
steps to share information much more broadly and rapidly.
    Beyond sharing information, we also share best practices 
for risk management, such as paper ballot backups and risk-
limiting audits. The ultimate goal, of course, is enhancing 
network protection, but we must be prepared for any 
eventuality, including unauthorized access to systems.
    The NCCIC is, again, the center of these efforts. Every day 
our protective security advisors and cyber security advisors 
located nationwide are working with election officials on 
incident response planning and crisis communications. Just 
yesterday, we had both our head of NPPD as well as our cyber 
security advisor in Cook County, real-time helping in case 
there was any issue with the election.
    DHS is committed to working collaboratively with those 
administrating our elections. We have formalized and better 
coordinated these efforts through the establishment of 
government and sector coordinating councils. And today I can 
say with confidence that we know whom to contact in every State 
to share threat information. That capability did not exist in 
2016.
    DHS is leading Federal efforts to support and enhance the 
security of election systems across the country. Yet, we do 
face a technology deficit that exists not just in election 
infrastructure, but across State and local government systems. 
It will require a significant investment over time and will 
require a whole-of-government solution to ensure continued 
confidence in our elections.
    Personally, I'm looking across my existing authorities as 
Secretary of the Department and looking at our available grant 
programs for opportunities to help State and locals in this 
area. I look forward to working with Congress. I read with 
great interest the recommendations that were released yesterday 
from your study and certainly look forward to working with you 
on implementing them.
    Thank you for the opportunity to appear and I look forward 
to your questions.
    [The prepared statement of Secretary Nielsen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Secretary Nielsen, thank you very much.
    Secretary Johnson, you are recognized. The floor is yours.

STATEMENT OF JEH CHARLES JOHNSON, FORMER SECRETARY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Johnson. Chairman Burr, Vice Chairman Warner, other 
members of this committee: I am pleased to be here alongside 
the Secretary of Homeland Security as a witness and a concerned 
private citizen. I had the privilege of testifying before 
Congress 26 times in 37 months as Secretary, and if I'm not 
called back once in a while I begin to feel left out.
    I'm also pleased that this committee has undertaken this 
hearing on this important topic of election cyber security. You 
have my prepared statement; I won't read it in detail. It sets 
forth the efforts we made in the Department of Homeland 
Security in 2016 to assist states in securing their election 
infrastructure prior to the election and the five written 
public statements I made warning the public and the states 
about the cyber threat to the election.
    Beyond that, I'd like to say this: As each member of this 
committee knows, in 2016 the Russian government, at the 
direction of Vladimir Putin himself, orchestrated cyber attacks 
on our Nation for the purpose of influencing the election that 
year, plain and simple. The experience was a wakeup call for 
our Nation as it highlighted cyber vulnerabilities in our 
political process and in our election infrastructure itself.
    Now, with the experience fresh in our minds and clear in 
our rearview mirror, the key question for our leaders at the 
national and State level is, what are we going to do about it? 
The matter is all the more urgent given the public testimony 
our Nation's intelligence chiefs gave before this very 
committee last month that the Russian effort to interfere in 
our democracy has not ended.
    I have seen this committee's draft recommendations for the 
future and I agree with them. The reality is that, given our 
Electoral College and our current politics, national elections 
are decided in this country in a few precincts in a few key 
swing states. The outcome therefore may dance on the head of a 
pin. The writers of the TV show ``House of Cards'' have figured 
that out. So can others.
    I am pleased by reports that State election officials to 
various degrees are now taking serious steps to fortify cyber 
security of their election infrastructure and that the 
Department of Homeland Security is currently taking serious 
steps to work with them in that effort. As a Nation we must 
resolve to strengthen our cyber security generally and the 
cyber security around election infrastructure specifically. 
Nothing less than the health and strength of our democracy 
depends on this.
    I look forward to your questions.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Secretary Johnson.
    It seems more than normal issues recently coming before 
this committee are not the jurisdiction of the committee. And 
were it not for the investigation, elections would not be the 
jurisdiction of this committee. But given the nature of our 
investigation, we have developed a committee of somewhat 
experts now on elections and election relationships between the 
Federal Government and the State. And that's why we asked 
Senator Collins, Senator Lankford, Senator Harris, and Senator 
Heinrich to take the lead as it related to election security.
    At this time, I would like to recognize Senator Collins for 
questions, followed by Heinrich, Lankford, and Harris.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman and again, let me 
thank you and the Vice Chairman for your strong bipartisan 
leadership of this investigation.
    Secretary Johnson, let me begin by thanking you for your 
extensive public service, and I very much appreciate your being 
here.
    In the summer and fall of 2016, DHS and the FBI issued 
several technical warnings about possible activities against 
State election systems. These warnings took the form of a flash 
report or a similarly technical bulletin, and generally, the 
warnings went to the IT staff of states and not to the chief 
election officials. I've read one of the FBI flash bulletins. 
It is extremely complex and it just refers to unknown actors 
scanning systems.
    In retrospect, do you think that it would have been better 
had the FBI and DHS issued a more comprehensive warning that a 
nation-state was attempting hostile action against State 
election systems?
    Mr. Johnson. Senator, let me respectfully disagree somewhat 
with your premise. I, in the fall, in August, September, 
October, issued five written statements to the public 
encouraging State election officials to come in and seek our 
cyber security assistance, over and above the technical 
messages that you cited, in mid-August, mid-September, October 
1, October 7, October 10.
    On October 1st specifically, I said: ``In recent months 
malicious cyber actors have been scanning a large number of 
State systems, which could be a preamble to attempted 
intrusions. In a few cases we have determined that malicious 
actors gained access to State voting-related systems.''
    That's a pretty blunt statement, in my view. We weren't 
then in a position in our intelligence community to attribute 
it to the Russian government, nor were we on October 7th. We 
said it was coming from a Russian business, but we weren't then 
in a position to say it was the Russian government. We later 
said that, however.
    But I can tell you that, in addition to these public 
statements, and in addition to the work of our people, we were 
beating the drum pretty hard, beginning with a conference call 
I had with every State secretary of state on August 15th. The 
good news is that by Election Day 33 states actually came in 
and sought our cyber security assistance, and 36 cities and 
counties came in and sought our cyber security assistance in 
the time permitted.
    Very definitely, Senator, as we look back on the experience 
two years later and we have a much clearer picture of the full 
extent of what the Russian government was doing, there could 
have been additional efforts made. But I'm satisfied that at 
the time this was a front-burner item for me and I was 
repeatedly making public statements warning State election 
officials about the threat we were facing as it was evolving.
    Senator Collins. Secretary Nielsen, at this point, we know 
for certain that the Russians were relentless in their efforts 
and also that those efforts are ongoing. And yet, when I listen 
to your testimony I hear no sense of urgency to really get on 
top of this issue.
    When we held our last hearing in June, I was dismayed to 
learn that not a single chief State election official had 
received a security clearance nearly eight months after the 
2016 election. We already are in an election year. We've had 
the by-elections in Virginia and New Jersey; we've had special 
elections in Pennsylvania and Alabama; our Maine primary is in 
June.
    What specifically is DHS doing to accommodate what you said 
was sponsoring three officials per State for clearances? That's 
150 officials. How many have actually received the clearances, 
and what specific actions did you take in the elections that 
have already occurred?
    Secretary Nielsen. Yes, ma'am. Thank you for the question. 
Let me just first start by saying not only is this of extreme 
urgency to the Department, but, as you know, we're expending 
not only extraordinary resources to provide any support at the 
request of states, but we are prioritizing election efforts and 
risk and vulnerability assessments for our partners in State 
and locals over all other critical infrastructure sectors.
    With respect to the security clearances, we've done two 
things. We've worked out a process with the inter-agency such 
that if we have intel we will read in the appropriate State 
election officials that day, so we're not waiting for 
clearances. If we have something to share, we will read them in 
and share it that day.
    With respect to the clearances, we are doing our best to 
speed up the process. We've prioritized them, as I said, over 
other clearances for other sectors. We have about 20 that have 
received the full clearance. We're granting interim secret 
clearances as quickly as we can.
    Senator Collins. Twenty out of 150?
    Secretary Nielsen. Yes, ma'am. And so we look--I've spoken 
with the Chairman and the Vice Chair just before. We certainly 
look forward to working with this committee government-wide on 
how we can speed up the security clearances.
    But the good news, again, is if we have something to share 
we will share that day. With or without a clearance, we'll read 
them in and share it. So it won't limit our ability to get the 
information to them any longer.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Secretary Nielsen, Secretary Johnson said in his testimony 
just now that he agreed with the committee's recommendations. 
Do you share that view?
    Secretary Nielsen. I do, yes. And as I said in my opening 
remarks, I look forward to working with you on implementing 
them. As you know, some of them aren't DHS, so I will be happy 
to advocate and support efforts throughout government.
    Senator Heinrich. Thank you.
    Secretary Johnson, I know hindsight is obviously 20/20, but 
looking back, knowing what you know now, what might have you 
done different or advocated differently in the run-up to the 
2016 election?
    Mr. Johnson. Well, the thing that I advocated for most 
strongly and that others, obviously including the President, 
agreed with was prior to the election we needed to inform the 
American people about what we saw. Some people say we should 
have done so sooner, but it was not an easy decision.
    With the benefit of two years' hindsight, it does seem 
plain, given the testimony in this room last month, that the 
Russian effort has not been contained; it has not been 
deterred. In my experience, superpowers respond to sufficient 
deterrence and will not engage in behavior that is cost 
prohibitive. Plainly, that has not occurred and more needs to 
be done.
    With the benefit of hindsight, the sanctions we issued in 
late December have not worked as an effective deterrent and 
it's now on the current Administration to add to those and 
follow through on those.
    Senator Heinrich. So do you think, for example, having a 
very clear, articulated cyber doctrine would be an important 
part of sending that message of deterrence?
    Mr. Johnson. Yes, I agree with that. Yes.
    Senator Heinrich. Secretary Nielsen, are you concerned that 
over a year into this Administration and despite the urging of 
people on both sides of the aisle on multiple committees, that 
we still don't have a clear administrative doctrine that draws 
some--that says to the Russians or others that there will be 
consequences if you cross this line into our elections?
    Secretary Nielsen. I agree with your comments yesterday at 
the press conference, sir. As you know, we have an Executive 
Order 13800 that requires us to develop just that. Working with 
the intel community, I look forward to supporting their 
efforts.
    It does need to be whole-of-government. As the Secretary is 
saying, we have sanctions, but we need to continue to look at 
diplomats, we need to look at indictments, we need to look at 
what we can do under OFAC. It needs to be very clear that there 
are consequences when countries meddle in our affairs.
    Senator Heinrich. I don't disagree that it needs to be 
whole-of-government, but one of my concerns is that no one's 
saying, ``The buck stops here.'' We keep hearing ``whole-of-
government''; we heard it in our worldwide threats hearing 
recently. But, someone has to take the responsibility to make 
this happen.
    How many Cabinet meetings have been focused on the whole-
of-government strategy to make sure that in 2018 this doesn't 
happen again?
    Secretary Nielsen. We have had a number of them. We 
actually have a number coming up. But I take your point. I am a 
very strong advocate of making it very clear who has the lead 
within the Federal Government for this particular issue.
    Senator Heinrich. How important is it--you know, one of my 
concerns is that we won't be able to get State and local 
officials to take the Russian cyber threat or other cyber 
threats seriously unless they consistently hear from the 
highest levels of government that this is real, that their 
systems are truly at risk, that they need to prepare.
    Director Nielsen, do you have the support you need from the 
White House to persuade those officials to take this seriously?
    Secretary Nielsen. I do, yes. And I think one of the 
lessons we've learned is to make sure that those messages go 
far and wide. So I've briefed the homeland security advisors; 
I've briefed governors, in addition to the State election 
officials and secretaries of state.
    But to your point, within the states, because of our 
decentralized system, it's very important that everyone at 
senior levels understands the threat and is briefed in.
    Senator Heinrich. Would it help if the President were to 
simply acknowledge that this happened in 2016?
    Secretary Nielsen. Yes, sir. I think he has said that it's 
happened. What he's--the line that he's drawing is that no 
votes were changed. That doesn't mean there's not a threat. It 
doesn't mean we need to do more to prepare.
    Senator Heinrich. Secretary Johnson, in your view, how 
important is it for the President to articulate and acknowledge 
that this happened so that people take it seriously?
    Mr. Johnson. Very. The President of the United States is 
the most visible American, maybe the most visible person on the 
planet, and the things he says and does are watched very, very 
closely, so I would agree with that.
    Senator Heinrich. Thank you, Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you both for the work that you have 
done to be able to support the Nation. I appreciate you both 
being here and both being on this panel together. I appreciate 
that very much.
    The decentralization of our election systems is 
exceptionally important, and one of the key aspects that we've 
tried to work through on recommendations is maintaining the 
states' control of elections. Both of you have affirmed that.
    Both of you have also affirmed the recommendations that we 
have put in place. I appreciate that.
    We've worked with DHS; we've worked with secretaries of 
state around the country, to try to be able to pull these 
recommendations together to be able to do it, including 
streamlining the communications between DHS and each of the 
states, updating to voting equipment that can be, and voting 
systems that can be, audited after the fact to just get 
verifiable information in that system. So, we think that's 
exceptionally important.
    Secretary Nielsen, can you affirm to me that there is no 
effort from the Federal Government right now to be able to 
federalize our elections, and that the focus is still on 
working with states to be able to support them and the work 
that they're doing to be able to run their elections?
    Secretary Nielsen. Absolutely.
    Senator Lankford. Talk to me a little bit about, Secretary 
Nielsen, about the classifications and getting classified 
information to individual secretaries of state. This was a 
struggle in previous times, during that election time period, 
getting information out. What would make a difference now, 
having clearances for individuals in the states and being able 
to communicate with them? What can you give to them with 
clearance that you couldn't give to them without?
    Secretary Nielsen. It's a good question. We've done a lot 
of work on three related processes over the last year. One is 
to work with the intel community to declassify information. As 
you know, some of the information does not originate within 
DHS, so we need to work with our partners to be able to share 
it.
    The second one is on victim notification. We have a role 
there, but so does FBI and so does MS-ISAC, which in this case 
the Multi-State Information Sharing and Analysis Center was in 
some cases the first organization to identify some of the 
targeting. So, we have to work with whomever originates the 
information. We all have different roles. So we've worked to 
pull it all together so that we can quickly notify victims of 
what has occurred.
    With respect to your specific question, as I mentioned to 
Senator Collins, what we've done is we're widely using day 
read-ins now, so we're not going to let security clearances 
hold us up. If we have information State and locals need, we 
will provide it.
    Senator Lankford. So, Secretary Johnson, you had some 
states give you push-back when you talked about things like 
making states critical infrastructure in their election systems 
and trying to be able to get that communication. You talked 
about an August 15th phone call that you had with secretaries 
of state to be able to talk to them.
    Talk me through what happened in that August 15th phone 
call? Is that a normally scheduled phone call? Was there 
consistent communication? And the things that Secretary 
Nielsen's dealing with now and that two-way communication 
that's much needed and that trust relationship, some of the 
things that you faced as well trying to be able to maintain 
trust with State election officials?
    Mr. Johnson. Incidentally, Senator, last year, last summer, 
I had the occasion to drive across country and return to 
Oklahoma City, to the memorial there.
    Senator Lankford. And thanks for being there, again.
    Mr. Johnson. So August 15th I was considering designating 
election infrastructure critical infrastructure, which the 
Secretary of Homeland Security has the authority to do. But I 
wanted to talk to State election officials about it first. I 
was, frankly, surprised and disappointed that there seemed to 
be a lot of misapprehension about what that would mean. I said 
to them a number of times that what it means is that we 
prioritize providing assistance to you if you ask. This is 
voluntary. It's not a Federal takeover; it's not a binding 
operational directive of any sort.
    And the reaction I got was largely neutral to negative; and 
so the priority had to be getting the states to come to us to 
seek our cyber security assistance. So rather than just simply 
make that designation, which I saw was going to be 
controversial at the time, we put it aside and encouraged them 
to come in. And most states actually did by Election Day.
    After the election, I came back to this issue. A lot of 
them were still opposed, but I did it anyway so that DHS would 
prioritize providing cyber security assistance to the states.
    And when we talk about cyber doctrine, one international 
cyber norm is that nation-states will not attack critical 
infrastructure, and so by making election infrastructure part 
of critical infrastructure they get the protection of the 
international cyber norm.
    Senator Lankford. Thank you.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    Secretary Nielsen, at a roundtable 42 days ago at the 
Homeland Security Committee meeting I asked Deputy Secretary 
Duke and Undersecretary Krebs whether DHS is prioritizing risk 
and vulnerability assessments for the states. I didn't get a 
clear commitment that you are.
    I'd also like to know, have you received the request that 
we made for a timetable for those assessments? Because we've 
not received a response to that request.
    Secretary Nielsen. Yes, ma'am. We are prioritizing. We have 
19 that are State and localities that have either been 
completed or are in process. We continue to offer the 
assistance, but we have made the commitment and prioritized the 
resources that any State or locality that requests that, we 
will have it completed before the midterm election.
    Senator Harris. Do you have a date for completion?
    Secretary Nielsen. Well, of the 19 I can get back to you, 
but those are the only ones who have requested so far.
    Senator Harris. Can you commit to completing all these 
assessments by June 1st, which would be five months before the 
election?
    Secretary Nielsen. Depending on who requests. But I'm happy 
to work with you on timelines as soon as we get a request.
    Senator Harris. And of the number you mentioned you said 
have been completed or in the process.
    Secretary Nielsen. Yes, that's correct.
    Senator Harris. How many have been completed?
    Secretary Nielsen. To my knowledge, 15. If that's not 
correct, I'll ask Jeanette Manfra to correct me when she 
speaks.
    Senator Harris. Okay, because you earlier said in the 
process of or have been completed.
    Secretary Nielsen. That's right. So I believe 15 have been 
completed. But again, she'll verify if I have that number 
wrong.
    Senator Harris. Okay. Well, we heard from her yesterday and 
she said that 14 are in the process.
    Secretary Nielsen. Okay. That's 19 total.
    Senator Harris. Can you follow up with how many have 
actually been completed?
    Secretary Nielsen. Sure. Sure.
    It's also a little confusing because, of course, they're 
states and localities. So 19 is states and localities.
    Senator Harris. Okay. My question concerns states. Thank 
you.
    Secretary Nielsen. Perfect.
    Senator Harris. Is there a protocol for following up to 
ensure that the reforms that you recommend have actually been 
completed?
    Secretary Nielsen. We do continue to work with them through 
hygiene scanning and others.
    Senator Harris. Is there a protocol to do that?
    Secretary Nielsen. That is the protocol that we offer. But 
again, it's all voluntary, so it's not a mandatory check.
    Senator Harris. Okay. In the intelligence community there 
is a concept called ``duty to warn.'' And, Secretary Johnson, 
I'd like to ask you--and essentially the concept is that, if a 
Federal agency learns that a person is at a risk of imminent 
harm or an entity is at risk, that they should be informed, and 
obviously without giving up critical information that we have 
in terms of sources and methods.
    Do you believe in the future that the Department should 
have a duty to warn states if the Department of Homeland 
Security is informed that there are imminent cyber security 
threats to their election systems?
    Mr. Johnson. Yes, absolutely.
    Senator Harris. Secretary Nielsen, do you agree with that?
    Secretary Nielsen. Yes.
    Senator Harris. Will you commit, then, to this committee 
that you will in fact warn those states when you become aware 
of imminent threat to their cyber security systems for 
elections?
    Secretary Nielsen. With the inter-agency, yes, ma'am.
    Senator Harris. Okay. And when you learn of these threats, 
will you also commit to informing immediately congressional 
committees, and particularly the Intelligence Committee?
    Secretary Nielsen. As you know, we--we will work with you 
on that. As you know, the entire process is voluntary. What we 
find is when we notify others of who the victims are, 
unfortunately it has a chilling effect and we no longer get the 
information from those who have been attacked. So we'll 
continue to work with you on how to do that.
    Senator Harris. So my question is will you commit to 
specifically informing the Senate Intelligence Committee when 
you become aware of those threats?
    Secretary Nielsen. We'll continue to work with you on the 
best protocols for that, yes.
    Senator Harris. So the answer is yes?
    Secretary Nielsen. The answer is it's very difficult if a 
State does not want to be identified because it's a voluntary 
relationship. I don't want to do anything that would limit our 
ability to understand who is being attacked. So we'd have to 
work with the victim, just like we do in any other sector, and 
work with you to make sure that we do it in the right way.
    Senator Harris. Would you commit to informing your 
oversight committee, which is the Homeland Security Committee 
of the United States Senate?
    Secretary Nielsen. I understand your question, and again 
we'll have to work with the victims. It's a voluntary system.
    Senator Harris. You sit on the Principals Committee of the 
National Security Council, is that correct?
    Secretary Nielsen. I'm a member, yes.
    Senator Harris. Okay. And that committee is comprised of 
Cabinet officials and is responsible for advising the President 
and coordinating policy on America's most serious national 
security challenges. Has the Principals Committee held a 
meeting focused on the security of the 2018 election?
    Secretary Nielsen. I myself hosted it, yes.
    Senator Harris. And when did that meeting take place?
    Secretary Nielsen. A few weeks ago.
    Senator Harris. And what decisions were made regarding 
election security?
    Secretary Nielsen. That State and locals remain in charge; 
that DHS needs to continue to expand our tool kit of what we 
can provide in support; that we need to work on tear lines, we 
need to work on victim notification, we need to work on 
clearances, and we need to work on communications to make sure 
that the public is aware of the threat.
    Senator Harris. And did you indicate timelines and due 
dates for what should happen before the 2018 election?
    Secretary Nielsen. Well, clearly everything should be done 
before that, but yes, for each one of those we have an 
agreement on a path forward with a timeline.
    Senator Harris. Will you provide that to this committee?
    Secretary Nielsen. Happy to.
    Senator Harris. Thank you.
    Chairman Burr. Thank you, Senator Harris.
    The Chair would recognize himself, and then the Vice 
Chairman, and then members based upon seniority.
    Secretary Johnson, I remember very clearly when you called 
a Gang of Eight meeting for the notification. And if I remember 
my timing right, I think Senator Reid actually might have had a 
brief the end of July because he happened to be in town. And 
when everybody got back, the 1st of September, you sat down 
with us and sort of presented us the scenario, and at that time 
talked about the critical infrastructure designation. It was 
followed some weeks after that by an all-members brief in the 
Senate; I'm sure it was in the House, as well.
    And I think you alluded to the fact that that was not 
received by the states or election officials, the critical 
infrastructure designation.
    In hindsight, for us knowing going forward, was that a 
mistake to even mention that? Did that taint the pool of their 
trust with us, with government, and maybe what the intent was 
on their part?
    Mr. Johnson. Well, we put it aside; and I was very pleased 
with the level of participation that we got. I thought it was 
important--I thought that the critical infrastructure 
designation, frankly, is something we should have done years 
before. It made so much sense.
    I think that the disadvantage we had with the timing was 
that it was in the midst of an election year and a rather 
heated election year. So I did put it aside, but then I, just 
before leaving office, came back to it because I thought it was 
something important to do.
    But in answer to your question, Senator, I think that we 
were able to build, in the time permitted, a pretty 
constructive relationship with a lot of states, red states and 
blue states, that all came to DHS to seek our assistance in the 
election season.
    Chairman Burr. I appreciate that. Even Secretary Nielsen's 
reluctance to be able to say, ``I would definitely do it this 
way''--let me just say, in our hearings we've found that states 
do not want a critical infrastructure designation, that there's 
a red line there. And I think we've learned as this has gone 
on. We've seen it. It's visceral.
    It's something that can be overcome with trust, and I think 
that's why as we produce benefits to the customer, which is any 
official or locality that has an election, then we gain a 
little bit more trust, we gain a little bit more ability to 
play a bigger role in the partnership, but not in taking over. 
I want to make it clear: Our recommendations do not intend or 
suggest that the government take over elections. It's not the 
Secretary or the Department's view of that, and it wasn't from 
the last Administration.
    But that designation did affect their willingness to come 
in and ask for help and suggest where problems were that they 
saw.
    Let me ask both of you. We'll start with you, Secretary 
Johnson. In 2016, were there any votes that were affected by 
this intrusion into any system in America?
    Mr. Johnson. Not to my knowledge, sir.
    Chairman Burr. Secretary Nielsen.
    Secretary Nielsen. We have no evidence that any votes were 
changed.
    Chairman Burr. Secretary Nielsen, looking forward ahead to 
2018, what is DHS's current estimation of the threat to our 
elections from Russia or any other hostile actor?
    Secretary Nielsen. Thank you for the question. I think, as 
you've noted, many of you in the press conference yesterday, 
unfortunately, once these vulnerabilities have been made clear, 
it's not just Russia that we have to worry about. These are 
vulnerabilities and attack vectors that any adversary could 
pursue. So we think the threat remains high. We think vigilance 
is important, and we think there is a lot that we all need to 
do at all levels of government before we have the midterm 
elections.
    I will say our decentralized nature both makes it difficult 
to have a nationwide effect, but also makes it perhaps a 
greater threat at a local level. And of course, if it's a swing 
State or swing area that can in turn have a national effect.
    So what we're looking at is everything from registration 
and validation of voters, so those are the databases, through 
to the casting and the tabulation of votes, through to the 
transmission, the election night reporting, and then, of 
course, the certification and auditing on the back end. All of 
those are potential vulnerabilities. All of those require 
different tools and different attention by State and locals.
    The last thing I would just quickly mention is we all 
continue to work with State and locals to also help them look 
at physical security. They need to make sure that the locations 
where the voting machines are kept, as well as the tabulation 
areas; they need access control and very traditional security 
like we would in other critical infrastructure areas.
    Chairman Burr. I thank both of you.
    Let me just say for the public's education, there's a clear 
distinction between what we're here to talk about today, which 
is the election process and how an outside actor could impact 
or influence that, versus, say, Russia's distinct campaign at 
societal chaos and their use of social media platforms. That's 
another area of investigation by this committee.
    But this particular area is focused on the elections and 
the process of one vote and it counts and that there's accuracy 
in that count.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    I want to follow up on some of the line of Senator Harris' 
question. And I'm sympathetic to the notion that you've got to 
have this collaborative relationship with the states, and I 
think the recommendations put forward by our members don't want 
to take over the Federal elections.
    But for both of you, because we know this is such a serious 
problem, because we know the Russians are and potentially 
others are coming at this, I think it is critical that, even if 
you don't want to highlight this, someone needs to highlight 
those states or localities that perhaps choose not to 
participate or not to move to a paper trail.
    You know, I have empathy for Secretary Johnson's notion of 
calling elections critical infrastructure. I think they are, 
but I get the notion of the pushback.
    So how do we work through that? And I believe the public 
does have a right to know if their State or if their community 
basically is ignoring this problem. Briefly, from both, if you 
could?
    Mr. Johnson. Senator, there's actually a role for the 
United States Senate to play in this.
    Vice Chairman Warner. We're trying.
    Mr. Johnson. During 2016, if I had resistance from a State 
I would call one of you and say: ``Would you please call your 
governor? Would you please call your secretary of state and 
tell them that they really need to come to us for assistance?'' 
I did have that conversation with at least one Senator, I 
recall very distinctly, and I thought it was effective.
    Vice Chairman Warner. Secretary Nielsen.
    Secretary Nielsen. I agree. I would say that there are 33 
states right now who have their voting systems certified by 
EAC. I think that's important. We should seek for all states to 
do that. There's 35 states that require it by law, so we'll 
continue to work with EAC on those voluntary voting system 
guidelines.
    But DHS is also working on our own baseline that would be a 
much more comprehensive look at all of the cyber security 
aspects within the election process. We intend to provide that 
to you and we intend to ask states to meet it.
    We have two states who aren't working with us as much as we 
would like right now. We're working through that. But yes, our 
intent would be to go to those congressional delegations and 
get some help from you.
    Vice Chairman Warner. I think it's very important, because 
I understand you've got to have a cooperative relationship, but 
I do think our constituents, our voters, need to know if a 
State or a jurisdiction is not stepping up.
    Secretary Nielsen. I agree.
    Vice Chairman Warner. We've talked a lot about the actual 
voting machines, and Senator Wyden may come to this issue when 
his time is up, but when you look at an overall State or 
locality's voter file, oftentimes those voter files are 
maintained by an outside vendor. Many of those outside vendors 
then collect all the information at a single point. So you may 
not have to go through simply the State system, but you could 
actually attack the vendors.
    Could you address what we're doing to try to upgrade 
security at the vendor level?
    Secretary Nielsen. Sure. We're working with vendors on 
supply chain, so we have launched a voluntary supply chain 
initiative within DHS across all sectors, but also to help the 
vendors understand the part and parcel that comprises the 
machines that they sell, that they offer.
    We also have a system or a program called Enhanced Cyber 
Security Services. It's a version of our EINSTEIN program, 
where we take classified indicators and we offer that through 
the private sector to vendors and states alike. We have six 
states taking us up on that and multiple vendors within the 
vendor community.
    Vice Chairman Warner. Well, I would make a request that, 
again similar to the states and localities, if there are 
vendors who are unwilling to cooperate or upgrade their 
security, I think it's critically important that this committee 
and other committees know so that perhaps we can bring 
pressure, as well.
    I think that is an enormous vulnerability. We've looked at 
the systems, but I think the vendors who service those systems. 
And I hope, Secretary Johnson, you would agree with that.
    Let me get to one other area. Our committee's investigation 
has been about election systems and security and how we can 
protect ourselves going forward. One area that we know where 
the Russians penetrated in 2016 was actually the campaigns, 
their ability to hack into the----
    Secretary Nielsen. Right.
    Vice Chairman Warner [continuing]. The DNC and release that 
information on a selective basis. Campaigns in many ways are 
the ultimate startups. They have very little security built in. 
This does not fit neatly into any governmental oversight, but 
do you have recommendations for us? The policy recommendations 
so far have been around systems, but should there be basic 
cyber hygiene guidelines for campaigns? And I'd like to hear 
from both of you on that topic.
    Mr. Johnson. Yes, Senator, and the answer is yes. Campaigns 
are not immune from nation-state surveillance, nation-state 
hacking. I was very specific in not including political 
campaigns in the critical infrastructure designation because I 
didn't think it was appropriate. But, you know, you could go on 
with a long list of infrastructure that needs certain basic 
best practices, whether it's a political campaign, a utility, 
an academic institution. So I would agree with that, yes.
    We've seen a number of instances where political campaigns, 
the e-mail systems of campaigns, have been hacked and data 
information has been stolen, going back years, as you know.
    Vice Chairman Warner. And recognizing it's voluntary.
    Secretary Nielsen.
    Secretary Nielsen. I completely agree. We are offering a 
variety of services there, as well: the hygiene scanning, as 
you mentioned, as well as just basic redundancy planning.
    Again, the issue here is that the information in the voter 
rolls, the databases, might be changed in some way, so having 
some way to audit that, to have redundancy, resiliency. We're 
working on planning with them and helping them understand best 
practices for just basic continuity of operations. But yes, 
you're hitting on another vulnerability that should be 
considered.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you both, thank you both for being 
here. This is an important topic that I think is misunderstood. 
A lot of people focus on it as far as did they change the 
results of the election.
    So I sat down last night and I thought to myself, you know, 
if you were to write, what's a hypothetical that could point to 
people how serious a problem this can become in the future? So 
here's a hypothetical scenario and I want you both to kind of 
opine whether that's something that could happen and whether 
I'm right in my assumptions, all right?
    So let's assume for a moment that the year is 2020 or 2024 
and there's a foreign leader who's tired of being lectured 
about democracy in their own country and they decide they want 
to create chaos in the United States and create doubts about 
our legitimacy. So he or she orders an operation against our 
presidential election. And now for the last five or six years 
this foreign power has identified ways to penetrate election 
officials at the State and the county level across America. 
There are so many of these that there's just this target-rich 
environment.
    One of the things they've perfected over the years, for 
example, in this hypothetical, is the ability to inject 
misinformation into the bloodstream of the internet, and they 
watch as this misinformation spreads like a virus until a 
significant number of people believe it. They've also 
perfected, by the way, strategic leaking of altered or factual 
information, which the mainstream media picks up on and it fits 
perfectly into the red-versus-blue dynamic that plays out on 
cable news, making them unwitting agents.
    So the plan of this foreign power in 2020 or 2024 in this 
hypothetical would not be to change the election results; it 
would be to create doubts about the validity of the election. 
And then spread those doubts using social media and media 
driven by red-versus-blue conflict, and ultimately call into 
question the legitimacy of a new President and potentially even 
trigger a constitutional crisis.
    So what they do, is they penetrate the voter database of 
local election officials in strategically located counties or 
states. And then they use analytic information they may have 
gotten from who knows where to identify specific voters, or 
maybe just party registration, maybe the stolen data of a 
campaign with identified supporters. And they use that 
information to go into the database and they change the 
addresses of individuals; thereby their precincts move around. 
Maybe they even delete some people from the rolls.
    The result is that on Election Day we start getting reports 
about thousands of voters in different parts of the country who 
can't vote because when they show up they're not registered, 
they're not in the system. Or they show up and they're told 
that their voting place is halfway across town somewhere else.
    Interestingly, a significant number of these voters who 
start complaining about this happen to be either of the same 
party or at least self-identified partisans of let's just call 
it Candidate A, and they live in a county or in a State that 
miraculously happens to be controlled by government officials 
of the opposite party.
    So these reports start getting out there and suddenly, 
magically, a bunch of these names on social media start 
spreading all these reports about what's going on on Election 
Day.
    Here's the other thing this foreign government's been able 
to figure out. This is all hypothetical. They've ultimately 
been able to mess with the system that kind of posts the 
results early, not the ultimate results, but just like 
unofficial results. And so that evening these results start 
coming up and, surprisingly, Candidate A is doing better than 
Candidate B, and people are surprised by it. But then the 
official results come back and it's a total reversal.
    So what happens, as you can imagine, at that point is 
Candidate A refuses to concede. There's this all-out fight 
going on in American society. In the months to come millions of 
people march on Washington to try to force the Electoral 
College not to certify. The reverse millions come out the other 
side.
    Come January, we don't even know if we can swear in a 
President. The military doesn't know who the commander-in-chief 
is. We're in an all-out constitutional crisis, total chaos. For 
the first time in 200-and-something years, the American 
republic is under duress from the inside out.
    That sounds like something from a novel or a drama, a 
dramatic presentation in the movies. How far-fetched is this, 
given the capability of foreign adversaries? Is this not the 
central threat that faces us when it comes to elections and the 
integrity of our election systems? And the reason why I ask is 
not because anyone on this committee doubts it, but because we 
also have local, State officials across the country who do not 
have this perspective, this broader perspective. To them it's 
just about whether or not they could change the tallies. You 
don't have to change the tallies to create all-out chaos. Is 
that not the central threat here?
    Mr. Johnson. Yes, Senator. I actually believe that the 
first half of your hypothetical was not a hypothetical. The 
second half of your hypothetical, insofar as votes, was my 
biggest concern in the fall of 2016 when we saw the scanning 
and probing around voter registration data, and that's a very 
real threat in my judgment.
    The other point I'd like to make about your hypothetical: 
In the fall of 2016, prior to the election, I thought long and 
hard about where the single points of failure are that could 
create that scenario. And the thing that occurred to me was 
Associated Press. Associated Press for years has been the 
entity on which we rely to report State election results to the 
rest of the media.
    So I actually picked up the phone and called the CEO of the 
Associated Press to go over with him to ensure that he had 
enough redundancies in their system if there was a failure on 
election night, and I was satisfied that they did. But it's 
something to also focus on.
    But I think your hypothetical is a very good one and I 
think all Americans should be concerned about it.
    Secretary Nielsen. I agree. I think what you have 
highlighted are all the various parts at which we need to make 
sure that we are securing the system, because any one of those, 
as you say, can create that doubt, which in and of itself is 
perhaps what the adversary is trying to accomplish.
    So from a DHS perspective moving forward, we're looking 
very carefully at how we can help entities at all of the places 
that you described protect their databases, as we saw in the 
summer of 2016 with the Structured Query Language, the SQL 
injections and attempts to manipulate the databases. We'll be 
scanning for that should someone take us up on our offer.
    Provisional ballots become very important for the reasons 
you've described. States should plan for what happens on 
Election Day if a variety of voters appear and suddenly they're 
not on the rolls but believe that they should be.
    We will have people in SOCs throughout the country. We will 
be stood-up 24/7 on any Election Day to provide immediate 
instant response should anything come up.
    And then, as the secretary mentioned, on election night 
it's very important to work with AP and others before the 
election results are formally certified and audited, to ensure 
that there's not information that's put out.
    So what I would suggest is that we all look at what you 
would call a hypothetical, but as the secretary rightly points 
out, is probably closer to a very good possibility, and walk 
through each of those and make sure that we are providing the 
tools and resources we need to State and locals so that they 
can prevent, identify, track, and then respond to any such 
issues.
    Chairman Burr. Senator Rubio said ``hypothetical,'' but if 
I hear he's doing a book tour we're going to all claim royalty 
off of it.
    [Laughter.]
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    I think Senator Rubio hit the nail on the head, and I'll 
tell you what surprises me. First of all, Secretary Johnson, 
it's great to have you back again. I enjoyed working with you, 
and so welcome.
    Let me ask you this first question. I don't understand. You 
learned about this in August. You did a number of specific 
things. You spoke about the dates that you did these things. 
And yet the American people were never told. Why?
    Mr. Johnson. Well, Senator, the American people were told.
    Senator Feinstein. Not sufficiently in any way, shape, or 
form to know that there was a major active measure going on, 
perhaps by a foreign power.
    Mr. Johnson. On October 7, 2016, the Director of National 
Intelligence and I issued a pretty blunt statement saying that 
the Russian government was interfering in our political 
process, directed by the highest levels of the Russian 
government. That was a pretty blunt statement. Some people 
believe we should have done that sooner.
    Frankly, it did not get the attention that I thought it 
should have received. It was below-the-fold news the next day 
because of the release of the Access Hollywood video the same 
day and a number of other events. I was expecting follow-up 
from a lot of journalists and we never got that because 
everyone was focused on the campaign and that video and the 
debate that Sunday.
    Senator Feinstein. As I recall, I was Ranking and, as I 
also recall, Senator Burr and I and a couple of others had Mr. 
Brennan in--not Coats--well, it was Brennan, it was the head of 
the--it was Comey, and it was Clapper who laid it out to us. 
Now, this was highly secret.
    Subsequently, it became known that there were 21 states 
that in fact had been pierced. But that information as to what 
states has not been released.
    So when we first heard, it was highly secret, in a SCIF. We 
could say nothing about it. And even now, where I see no reason 
that 21 states can't be released as having been even possibly 
pierced by an active measure of a foreign country at this time, 
so those states would at least know that maybe they should take 
a look and do something about it.
    If either of you can answer that--it's not in a question 
form, but I think you know where I'm going, because if we're 
told and it's all classified we can say nothing. If this is 
being done by the Administration to prevent it from being 
released, nobody can protect themselves.
    Mr. Johnson. Senator, two things. First, as Secretary 
Nielsen pointed out, very often the victims of a cyber attack 
are extremely sensitive to the fact of a disclosure that they 
were the victims of a cyber attack, and that was true in this 
circumstance.
    I also know and recall that in 2016, when we were working 
with the states, every State or every State owner of a system 
that had been targeted, was informed either by DHS or the FBI 
or through the MS-ISAC, the information-sharing organization.
    Senator Feinstein. But it was never made public, Mr. 
Johnson.
    Ms. Nielsen, I don't understand why the same thing 
persists. I mean, this ``victim'' sort of appellation--
America's the victim and America has to know what's wrong. And 
if there are states that have been attacked, America should 
know that. So this ``victim'' answer with me has no credibility 
at all.
    Secretary Nielsen. As you know, the 21 states themselves 
have been notified. But I take your point.
    Senator Feinstein. But the people have to know. If my State 
is notified, I better see that they do something about it. 
Everybody thinks, oh, it's some other State.
    Secretary Nielsen. Right, I understand. I look forward to 
reading your report and finding out what you heard from the 
states.
    I think what I was trying to explain earlier is, 
unfortunately what we've seen in other sectors----
    Senator Feinstein. There was no report.
    Secretary Nielsen. The one that you're working on, I'm 
sorry, the report. I just look forward to reading it to see 
what you've--because I know you've talked to many of the states 
yourselves.
    But what we've seen, unfortunately, throughout the last 15 
years at DHS is, when it comes to this situation the victims 
stop reporting. When they stop reporting, we're just not aware 
of the attacks. Not only can we not help them, but we can't 
help other victims that are likely to be victimized in the near 
future based on the same vulnerabilities.
    So we have to balance that. I really look forward to 
working with you on this. I take your point. We've got to find 
a way to encourage reporting and encourage cooperation while 
also making it transparent.
    Senator Feinstein. But I think states have to know that 
it's going to be known by the public if they don't. And if it's 
never made public, I'll bet you you have a bunch of states: 
Well, we've invested in this and we're not going to do anything 
about it now, and we'll see what happens in the future. I'll 
bet that happens in some places, and you're enabling it.
    Secretary Nielsen. Well, I think what we're doing at DHS is 
we'll come out with this. As I mentioned before, EAC has 
guidelines, but we're working on a baseline that's much more 
comprehensive. What we will do is not only tell states that 
that's our best recommendation at what they need to meet, but 
we'll be very transparent as to the states that don't meet it. 
So we will do that. From a preparedness side and a prevention 
standpoint, we will make clear what states need to do more.
    But in terms of moving forward, yes, we need to work on 
this issue of the notification.
    Chairman Burr. Senator Feinstein and I were faced with a 
similar task as it related to cyber security legislation. Do 
you make it mandatory reporting? Do you make it voluntary? If 
you make it voluntary, what latitude do you have to make public 
disclosures of who has turned in information?
    And we decided with that legislation that voluntary was the 
best approach for cyber reporting and it was up to the 
companies then whether they wanted to make public 
acknowledgements. I think all of us know that the banking 
system is riddled with intrusions, but no financial institution 
in America wants to go out and that to be public. So we do have 
a predicament.
    Senator Feinstein. And that may change.
    Chairman Burr. That may change.
    The committee is committed to work with the Department of 
Homeland Security to continue to make our system better.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Well, you know, we do know that the fabric of democracy is 
people's belief that what happened on Election Day was what 
actually happened, so securing those systems, important; 
securing the systems of registration, important.
    Secretary Johnson, you mentioned, following Senator Rubio's 
great hypothetical of what clearly could happen, you said it's 
not hypothetical. Now, you didn't mean by that that this is 
what happened, did you?
    Mr. Johnson. I thought that the first half of Senator 
Rubio's hypothetical, as I heard it, was real----
    Senator Blunt. You think that----
    Mr. Johnson [continuing]. Insofar as the misinformation 
campaign that he described.
    Senator Blunt. I thought what you were talking about was 
the infiltration of the registration systems.
    Mr. Johnson. No, no. That was my--that is hypothetical, but 
it was my biggest concern in 2016.
    Senator Blunt. Well, it is a concern. There's no doubt 
about that.
    At the same time, we've never had an election where--let me 
see if I can find your quote, Secretary Nielsen--where a number 
of voters didn't appear on Election Day who were not on the 
voting rolls but thought they were. I was a State election 
official; I was a local election official. There is never an 
election where lots of people don't show up, particularly a 
presidential election, and they're sure they should be on the 
rolls----
    Secretary Nielsen. Right.
    Senator Blunt [continuing]. But often there are reasons 
that they're not on the rolls.
    Most states that didn't have a provisional opportunity to 
cast a ballot before 2000 I think added one after 2000. So that 
voter almost always is allowed to cast their ballot. If this 
needs to be judged in some way, it's done after the election. 
Sometimes it's easily figured out. Sometimes it turns out that 
the voter has already voted somewhere else, or the voter lives 
in another county, or the voter lives in another State. But 
they get a chance in most states to cast that ballot even if 
they have--if there's a question about whether they're on the 
voter rolls.
    I'm much more--I'm concerned about the voter rolls, 
concerned about the infiltration of the voter rolls. I'm much 
more concerned that we secure the counting systems. We're going 
to have another panel to talk about that, that the counting 
systems themselves be secure. I think it really is critical 
infrastructure.
    Secretary Johnson, your August outreach to election 
officials, did you provide much information as to what it meant 
to become critical infrastructure? Or did they have any reason 
to really understand why you were making this suggestion of a 
great change of responsibility 90 days before the election?
    Mr. Johnson. I went through with them in August in detail 
what a critical infrastructure designation would mean. And I 
explained essentially three things: that it prioritizes the 
assistance that we provide if they ask; it means for a certain 
greater level of confidential communications between DHS and 
the states; and it means that they would have the protection of 
the international cyber security norm. And I stressed at the 
time that this is all voluntary and it prioritizes assistance 
if they seek it.
    Senator Blunt. You know, we're going to have a secretary of 
state on the next panel who I think was on that call, and I 
don't believe that's their view of how that conversation went. 
But we'll see what their view is.
    The other question when you brought this up before, what 
would the protection of the international norm be? We've had 
our Federal personnel records have been--somebody has those. We 
have all kinds of financial information that's been out there. 
What good--what is the international norm supposed to provide 
here that it doesn't appear to provide anywhere else in terms 
of real protection?
    Mr. Johnson. The international norm is that nation-states 
will not attack critical infrastructure. Now, obviously it's 
incumbent upon the victim State to then do something about it 
if their critical infrastructure is attacked. But the 
designation makes clear that we consider election 
infrastructure to be critical infrastructure like government, 
like our defense industry, like our financial services 
industry.
    Senator Blunt. Well, I don't disagree that it's critical 
infrastructure. I'm not sure I agree that calling it ``critical 
infrastructure'' provides much of a level of security right 
now.
    My last question for this panel. Secretary Nielsen, you 
mentioned the Election Assistance Commission a couple of times. 
Do you have concerns that we're moving into an area here where 
that commission and your agency will not quite know where the--
how do we define this in a way that creates the lines of 
responsibility so that somebody knows who is responsible and 
what they're responsible for?
    Secretary Nielsen. Yes. As you know, DHS is working very 
closely with EAC. We've created a Government Coordinating 
Council. EAC and DHS sit on that along with a variety of State 
and local election officials.
    EAC certifies the systems. EAC has the voluntary voting 
system guidelines. We're working with them and NIST to update 
those. They need to be updated. We hope that the final draft 
will come out next month. We need to continue to work with them 
to expedite that so that we have a guideline that reflects the 
current threat.
    But I would say I think the role between DHS and EAC is 
clear right now. It's just making sure that we're doing it in 
lockstep so that we're together providing the assistance that 
the states need.
    Senator Blunt. I may have some questions for the record on 
that topic.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Secretary Nielsen, Secretary Johnson, good to have both of 
you here.
    I want to start by talking about the fact, 43 percent of 
American voters use voting machines that researchers have found 
have serious security flaws, including backdoors. These 
companies are accountable to no one. They won't answer basic 
questions about their cyber security practices, and the biggest 
companies won't answer any questions at all.
    Five states have no paper trail, and that means there is no 
way to prove the numbers the voting machines put out are 
legitimate. So much for cyber security 101.
    My question to you, for Secretary Nielsen, is: Does your 
agency have the authority to mandate basic cyber security in 
the electronic voting machines used in this country?
    Secretary Nielsen. No, sir.
    Senator Wyden. Does any agency?
    Secretary Nielsen. Not to my knowledge, not at the Federal 
level.
    Senator Wyden. Okay.
    Now, Americans don't expect states, much less county 
officials, to fight America's wars. The Russians have attacked 
our election infrastructure. Leaving our defenses to states and 
local entities, in my view, is not an adequate response.
    Our country needs baseline mandatory Federal election 
security standards, and what I'm talking about here are paper 
ballots and post-election risk-limiting audits. You and I have 
talked about this before, and I'd like to get your views for 
the record of whether you believe the continued use of 
paperless voting machines in this country threatens our 
national security and the Department is now prepared to 
recommend paper ballots.
    Secretary Nielsen. So yes, sir. If there is no way to audit 
the election, that is absolutely a national security concern.
    So we're working with states. There's a variety of ways to 
do that. As you know, one is paper ballots. One is having a 
system itself that has a voter-verified paper audit. So in 
other words, you vote electronically, but the machine spits out 
almost like a ticker tape, what you voted and you have that for 
your record, and then we can also have it for a record. So it's 
a different way of doing it from paper ballots.
    But yes, sir, we absolutely have to have a way to audit and 
be able to verify the integrity of the information of the 
votes.
    Senator Wyden. I think that sounds like a step in the right 
direction, because I was just stunned at the brazenness of 
these voting machine companies. I mean, the biggest one won't 
answer anything at all. And you've now told us that the status 
quo is a national security threat.
    I just want to, before we wrap up, see if we can drill a 
little bit further into the question of whether you all are 
prepared to recommend that our country have paper ballots. I 
think you're almost there.
    Secretary Nielsen. We have said it's a best practice. We do 
recommend it. What we say is you must have a way to audit. You 
can do it through paper ballots or you can do it through this 
voter verification, but you must have a way to audit and verify 
the election results.
    Senator Wyden. Are you aware of the way we do it in Oregon 
and we've done it now for decades? We vote by mail. Everybody 
gets a paper ballot. There is an audit trail. We've done it for 
decades. It's been supported by Democrats and Republicans.
    I'd like in 2020 every American to get a ballot in the 
mail. I think it is a national scandal, the security issues 
you've talked about and the idea that so many of our people 
wait in these lines only to be told they ought to go somewhere 
else.
    What do you think of the Oregon system?
    Secretary Nielsen. So I'm not as familiar with it. I look 
forward to learning more about it. Some of the issues that, 
aside from this particular conversation, that have been raised 
with mail is just making sure that the person who's voting is 
who we think they are. So we do have to have a way to verify 
identity.
    Senator Wyden. We'll show you how to do it because we've 
done it----
    Secretary Nielsen. Happy to learn.
    Senator Wyden [continuing]. We've done it for two decades, 
and we basically say right on the envelope: ``If you aren't the 
person that you say you are, you are in one heck of a bad way. 
You are going to face serious, serious penalties.'' And that's 
why it has worked and is supported on both sides of the aisle.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Thank you both for being here. I think it 
sends a very good message to see both of you sitting side by 
side and appearing to answer the committee's questions, and 
appreciate your service to the country.
    I want to start, Secretary Nielsen, by thanking you for 
your comments about the bombings in Austin. When I talked to 
Chief Manley at the Austin Police Department the day before 
yesterday, he told me there were roughly 500 Federal 
authorities on the ground doing everything they could to 
identify the bomber.
    And as we've learned today, he will not be doing that 
anymore. But it's important to remain vigilant, I think you 
also said, lest there be some other unexploded bombs out there 
that he might have planted.
    I'd like to ask both of you to comment on this. My 
understanding of our adversaries, whether they be Russia or 
China, is they view the internet and cyber space far 
differently than we do. In other words, they view it as a 
domain for information warfare. They do not allow their 
citizens to use the internet for the purposes that we use it 
for, for commerce or for communication between friends and 
family, to share social media, pictures of grandkids, things 
like that. They use it as a weapon, and we don't.
    It seems like we are just constantly playing defense. And 
while I know today the topic of the hearing has to do with our 
election systems, and there couldn't be anything more important 
in terms of securing those election systems, it does raise the 
question about what is America's national security cyber 
strategy?
    I know we learned from the Department of Defense that they 
are late responding to a mandate in the Defense Authorization 
Act to respond in terms of their role. But clearly the 
Department of Homeland Security plays a very important role 
too, but you're not alone. There are other government agencies 
that are involved in this question.
    So what do you think it's going to take, and what do you 
recommend for the United States government that we do to create 
an all-of-government strategy to deal with the cyber threat?
    Maybe start with you, Secretary Johnson.
    Mr. Johnson. Senator, I think that's a very good question 
and I think you have to look at several aspects of the problem. 
One, I think that when you're talking about a nation-state 
actor we have to create an environment of sufficient deterrence 
to that nation-state. All nation-states will not engage or will 
refrain from behavior if it's cost-prohibitive behavior, if 
they know it's cost-prohibitive.
    The Department of Homeland Security has a role on defense 
in working with the public to harden our cyber security. I do 
think that--and I think your question touches on this--our open 
society, our strength as an open society, is also our 
vulnerability, and we have to be somewhat careful in going down 
the road of having U.S. government agencies trying to regulate 
speech, trying to regulate political speech, political debate. 
As you know, they do that in other countries. We don't do that 
here.
    So the information marketplace and its easy access is 
definitely a problem for our democracy, but I would hesitate 
for the U.S. government to go down the road of trying to 
regulate it in some way. There are matters of Federal election 
law, to be sure, things that violate Title 18, but I happen to 
believe that a lot of this has to depend upon self-regulation 
by internet service providers and social media providers.
    Senator Cornyn. Secretary Nielsen, do you think we have a 
national security strategy?
    Secretary Nielsen. We do.
    Senator Cornyn. When it comes to cyber?
    Secretary Nielsen. We do. But, having said that, the White 
House is working on an update to the national cyber security 
strategy. An update to DHS's strategy will nest within that.
    But I also want to just take the opportunity to reaffirm 
what you said. I think there's two parts to this at least. 
There's the part we're talking about today, but then closely 
related to that is the malign foreign influence in general.
    I agree with Secretary Johnson, we have to be very careful 
in that conversation about substance, but I think the real 
issue is who is providing that substance. The example that I've 
used before is: If I read something on the internet or social 
media, et cetera, and I believe that it's from 50 of my closest 
friends and neighbors, I might feel very differently if, in 
turn, I'm told that's from 50 machines in Russia.
    So it's not so much the substance as it is perhaps 
Americans need more understanding of who is messaging and the 
intent behind the messaging. So that is something that the DOJ, 
FBI, and State Department are leading on, but I do think is a 
very important part of this conversation.
    Senator Cornyn. If the Chairman will permit me just one 
last comment, I think what I also think about is some of the 
social media companies basically throttling or censoring the 
news. Since they've become a primary vehicle for people to 
learn what's happening in the world, if they then take that 
role of censors, what the implications of that might be. 
Something for us to think about and talk about maybe in the 
future.
    Secretary Nielsen. Yes, we need to be very, very careful.
    Chairman Burr. Thank you, Senator Cornyn.
    Secretary Nielsen, your staff has accommodated a slight 
change in your schedule, if it's okay with you, that we would 
go for--we've got two members that are here, maybe a third one 
that might come back for questions. We will finish by 11:15 if 
you're in agreement.
    Secretary Nielsen. Okay, yes, sir.
    Chairman Burr. Thank you.
    Senator.
    Senator King. Thank, Senator--or Mr. Chairman.
    I spent about an hour yesterday afternoon reading the 
classified draft report of our committee on this subject. All 
along we've been talking about the Russians penetrating our 
systems and messing around with our elections. That's not 
sufficient. What I learned yesterday was horrifying. What we 
saw wasn't messing around or penetrating. It was a 
sophisticated, thorough, comprehensive, malign, and malicious 
attack on our electoral system.
    What worries me is that, although the intelligence is 
uniform that no votes were changed, they weren't doing it for 
fun in 2016. What it looks like is a test, and it was 
incredibly, as I say, thorough and comprehensive.
    I want to follow up on Senator Cornyn's question. We can 
patch software systems till the end of time and we're not going 
to defeat these people. The history of warfare is the history 
of the invention of new offensive weapons, and then eventually 
defensive weapons catch up.
    We saw the advent of a serious offensive weapon in 2016 
being used against us. All of the patches aren't going to work 
if we don't have a strategy of deterrence. And that's the point 
of the question that Senator Cornyn asked and Senator Heinrich 
asked, and we don't have that strategy. In 2016 we passed the 
National Defense Act. It had an amendment requiring the 
Secretary of Defense by last June to give us the elements of a 
national cyber strategy. It hasn't happened yet.
    180 days from that report was supposed to be a report from 
the President. Of course, that hasn't happened yet because the 
first report hasn't happened.
    This problem is not being treated with the urgency that it 
deserves, and a deterrent strategy--because the problem now is 
the Russians send in this whole operation into our election 
system, into our states, 21 states that we know of, and paid no 
price. And we've had testimony from admirals and generals and 
people in CYBERCOM, and they've said: ``Yes, Senator, there's 
no price that will change their calculation.''
    And so, Secretary, I hope when you go back--and by the way, 
this was a failure of the prior Administration in my view, 
because we've known this for four or five years, that this was 
coming. So this isn't a partisan observation. But I hope you'll 
go back and join with DNI Coats and with Secretary Mattis and 
the President and make this the highest priority that we have.
    This is, I believe, with the possible exception of North 
Korea's nuclear weapons, this is the most serious threat that 
our country faces today and we are not adequately dealing with 
it.
    And please expunge from your lexicon the word ``whole-of-
government.'' Every time I hear that I think: That means none 
of government. I want to hear who's in charge and what they're 
going to do about that.
    So, Secretary Nielsen, I think you're in a key position. 
And I hope you'll read this classified report because----
    Secretary Nielsen. I look forward to it.
    Senator King [continuing]. It will terrify you. And then, 
of course, this is just one aspect of this attack on us. So I 
believe this is an incredibly important area.
    Now, let me ask a more specific question. You mentioned 
earlier--we talked about clearance of State officials and only 
20 have been cleared. I hope that can be accelerated, because 
we've already had several primary elections and we're headed 
into many more this spring. Do you have plans to try to 
accelerate that clearance? Because communication won't work if 
you can't tell them.
    Secretary Nielsen. We do, yes, sir. It is a problem that is 
not unique, unfortunately, to this particular stakeholder set, 
so I do look forward in general----
    Senator King. No, you're right. 791,000 clearances that 
we're behind.
    Secretary Nielsen. I know.
    But what we have done is we've worked out the processes 
whereby, if we have actionable information, we will provide it 
to the State and local officials on a day read-in. So we are 
not letting the lack of a clearance hold us back. We're in 
contact with them. If we have information to share with them 
with respect to a real threat, we will do so.
    Senator King. Let me make a modest suggestion, because 
we're going to have State officials here soon; we've had State 
officials before. The general reaction is--and I don't want to 
over-characterize it, but the general reaction is: We're doing 
a pretty good job; we're in good shape. I get the same thing in 
the Energy and Natural Resources Committee from utility 
executives: Don't worry; we've got it in hand. I don't believe 
that.
    You have the capability--this is my modest suggestion: 
Create a red team in DHS, a group of really skillful hackers, 
and hack some of these states and show them how vulnerable they 
are. Because I don't think they're going to believe it until 
you show them what your people can do. And that may mean--this 
country has to wake up, and I just suggest that as a possible 
technique. You've got some skilled people you can work with, 
NSA or CYBERCOM, and develop a red team that will kind of shock 
people into the realization of how serious and how vulnerable 
they are. Would you consider that suggestion?
    Secretary Nielsen. We will consider it. We do try to 
currently get at that through our risk and vulnerability 
assessments. We have continued to encourage states to take us 
up on that. That is a comprehensive assessment we do on site. 
It includes pen testing; it includes wireless access; it 
includes database. So it gets at some of what you're saying.
    But yes, sir. We need to help them understand where they've 
vulnerable, absolutely.
    Senator King. Well, I appreciate your leadership and really 
urge you to go back with your hair on fire.
    Secretary Nielsen. You have an advocate here.
    Senator King. This is an urgent matter.
    Mr. Secretary, it's good to see you. Seeing you back 
reminds me of the old country song: ``How Can I Miss You If You 
Don't Go Away?''
    [Laughter.]
    It's nice to see you, sir.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. I think that was meant as a compliment. You 
need to study the country songs genre a little more, Senator.
    Look, we've all, you and everybody on this panel have 
looked at thousands of pages, and done the interviews, and 
reviewed everything there is.
    A simple question I have for you. Right now, we pretty much 
know what happened and everybody's got an idea of what's 
happened. The question I have for you is: Are either one of you 
aware, or has it been suggested to either one of you, or have 
you seen any evidence of any kind that any U.S. person was 
involved in this scheme?
    Ms. Nielsen.
    Secretary Nielsen. Not to my knowledge. No, sir.
    Senator Risch. Mr. Johnson.
    Mr. Johnson. You have to--I'm sorry to be a lawyer here. 
Which scheme are you referring to?
    Senator Risch. I'm talking about the Russian scheme to do 
what they did as far as attempting to interfere in the 
elections, the kinds of things we've been talking about this 
morning, the attacks, the penetrations, and what have you.
    Mr. Johnson. My recollection of the Special Counsel's 
indictment is that there were some U.S. citizens included in 
it. That's my recollection, but I could be wrong about that.
    Senator Risch. You want to follow up on that?
    Secretary Nielsen. Just I have no knowledge, if we're 
talking about the topic of this hearing, which is the hacking 
of elections, I have no knowledge that a U.S. citizen was 
involved in that.
    Senator Risch. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Let me just follow up on that very 
quickly, if I may. Do you all, either one of you all, have any 
doubt whatsoever, from what your knowledge and talking to the 
intelligence communities, that the Russians were involved at a 
higher level than they've ever been involved before?
    Secretary Nielsen. I have no doubt.
    Mr. Johnson. No, sir. No doubt.
    Senator Manchin. Okay. And as a result of the Russians 
meddling in 2016, I'd fought to ensure the bill passed out of 
the Senate Appropriations Committee included a directive for 
DHS to provide technical assistance to State and local law 
enforcement to secure networks against cyber attacks. And 
before our committee this past year I was shocked to learn that 
multiple Federal agencies, including DHS, could not confirm 
that they did not have Kaspersky software in their system after 
we recognized the threat it posed to our national security.
    So my question would be, if our own Federal Department of 
Homeland Security has trouble finding a reliable vendor and 
relates to a Russian vendor such as Kaspersky, wouldn't you 
think our cash-strapped states and local partners might have 
the same problems?
    Secretary Nielsen. The short answer to that is yes. As you 
know, we issued a binding operational directive to remove all 
such products from Federal systems. We do not have authority to 
mandate that states do that, but we have taken it----
    Senator Manchin. Have you removed Kaspersky from yours?
    Secretary Nielsen. Yes, sir, and we have taken it of the 
GSA catalogue, as you know, which would allow states to 
purchase it with Federal funds.
    Mr. Johnson. I generally agree with what the Secretary 
said.
    Senator Manchin. The other thing, Russia or any other 
country that has been found guilty of meddling in our 
elections, which I think that we have confirmed by all our 
intelligence communities, what punishment or what 
recommendations of punishment or sanctions would you all 
recommend that would be stringent enough to prohibit that from 
happening or any other country going down this path that Russia 
has gone down?
    Secretary Nielsen. Sir, I can just tell you I think it's a 
very important question because we have a multifaceted 
relationship with Russia. We still seek their cooperation when 
it comes to North Korea, Syria, Iran, for example. So, the 
consequences and what we do in reaction to their meddling in 
the election needs to be proportionate, but also needs to be 
driven in a way that they understand the specific behavior that 
we are seeking to avoid.
    And as the Secretary said, you know, the hope in general is 
that the international community continues to recognize that 
affecting and attacking critical infrastructure of another 
nation is a red line. As an international community, we all 
need to hold each other to that and recognize that that is a 
red line.
    So from a U.S. government perspective, we've looked at 
everything from sanctions back from the Obama Administration, 
to sanctions now, to the PNG'ing of diplomats, to indictments. 
We need to do more. We need to continue to make the point.
    Senator Manchin. Well, let me expand on that. Should we 
treat a cyber attack or intrusion on our government, on our 
country, if sponsored or directed by a foreign government, 
which we know was, an act of war?
    Secretary Nielsen. We need to look at that very carefully. 
As you know, we have not made that decision as a country, 
either as a policy perspective or a congressional perspective. 
But I hope that we can work together and with other parts of 
the Administration and decide where is that red line.
    Senator Manchin. Secretary Johnson, do you think that we 
have deterred Russia from continuing their operations as far as 
trying to infiltrate our election system for the 2018 election?
    Mr. Johnson. No, we have not, based on the testimony in 
this room last month from our intelligence chiefs.
    Senator Manchin. So we're facing the same, if not worse?
    Mr. Johnson. Correct. Yes, sir.
    Senator Manchin. Secretary Nielsen.
    Secretary Nielsen. Yes, there's no reason to believe they 
will not attempt again.
    Senator Manchin. Well, if that's the case then we have a 
nuclear weapons retaliation policy; shouldn't we have a cyber 
retaliation policy?
    Secretary Nielsen. I think that's what some of the members 
have asked about. Yes, we have an Executive Order 13800 Mr. 
King was mentioning and Mr. Heinrich, what we need to do in 
terms of being very specific with respect to our deterrence. 
You have an advocate here. I will go back to my colleagues and 
the President and make sure that we get that done very soon.
    Senator Manchin. We're coming down to the wire on the 
election, as you all know.
    Secretary Nielsen. Agree.
    Senator Manchin. The primary, most of our states have 
primaries very shortly, and November election coming up, and 
we're faced with the same. And our states don't have the 
wherewithal in order to deter this if they're hooked to the 
internet in any way, shape, or form.
    Secretary Nielsen. I'm happy to take that message back. As 
you know, DHS does not do offensive cyber----
    Senator Manchin. Do you believe the Federal Government 
should be involved in helping secure the election process State 
by State?
    Secretary Nielsen. Oh, we are, yes, sir. We are. At their 
request, we're working State by State, locality by locality.
    Senator Manchin. How much money do you all have targeted 
for this?
    Secretary Nielsen. We've asked for another $25 million 
specifically to help our own resources. But as I've mentioned 
earlier, we've prioritized these.
    Senator Manchin. Do you all have a final recommendation on 
how you're advising the states to secure their system?
    Secretary Nielsen. Oh, yes. We have many, many, depending 
on all of those different parts that I mentioned earlier.
    Senator Manchin. Have they spoken back to you about the 
money, they don't have the money to either meet the 
requirements or suggestions you've made?
    Secretary Nielsen. In some cases, yes, they have. Of course 
they have resource constraints. Some of the machines themselves 
are old, as you know.
    Senator Manchin. But it's a concern for the 2018 election?
    Secretary Nielsen. Yes, sir.
    Senator Manchin. Thank you.
    Chairman Burr. Thanks, Senators.
    Secretaries, we've come to the end of this hearing. And, 
Secretary Johnson, I'm not a lawyer, so I had to turn to our 
counsel. Of the four individuals that have been indicted by the 
Special Counsel, two were on lying to the FBI; the other two 
was a mix of bank fraud, wire fraud, mail fraud. So no 
individual that's been indicted by the Special Counsel.
    The other indictments--the other charges were directly at 
the IRA, the Russian facility that carried out. So if that 
helps to clarify your memory.
    And let me say to Senator Manchin that it's my 
understanding that the appropriators have taken care of, in the 
omnibus bill, an amount of money to be grants and other items--
I don't want to speak for what their language is going to be--
that mirrors the research that this committee did.
    And I want to thank Shelley Moore Capito, who chairs that 
Appropriations Committee, for working with our staff, and 
hopefully I've made a commitment to Secretary Nielsen that we 
would be more than open to address any other needs as we see 
those as we move up to 2018 or to 2020.
    I want to thank both of you for your testimony today and 
your willingness to appear together. Everybody's said something 
about it and I think it sends a strong message that the 
integrity of our election system is not a partisan issue and 
it's truly the heart of the strength of our democracy.
    The committee's investigation found ample evidence to agree 
with DHS's assessment in 2016 that Russian government actors 
scanned an estimated 21 states and attempted to gain access to 
a handful of those. In at least one case, they were successful 
in penetrating a voter registration database. We've heard our 
witnesses confirm that assessment today. Despite that activity, 
I need to reiterate that the committee found no evidence of any 
vote totals that were changed, a finding that was confirmed by 
our witnesses also today.
    The committee also discovered that Russian activities 
directed at the states fell in a seam of our national 
intelligence infrastructure. It was a foreign activity, but 
carried out on the United States inside the United States, 
where our intelligence agencies have limited authorities. And I 
can't stress that enough, that we've got to consider that as we 
go forward.
    The intelligence community was therefore almost entirely 
dependent on the states for the insight into these activities. 
The committee found that DHS and FBI alerted states to the 
threat in the summer and fall of 2016, but in a limited way.
    Our witnesses today confirm that they provided warnings to 
state IT staff, but notifications to election officials were 
delayed nearly a year. States therefore understood that there 
was a cyber threat, but not the seriousness of the scope of 
that threat.
    This committee intends, hopefully before the end of the 
week, to produce an overview of our report that's sanitized, 
that can be released. The committee's full findings and 
recommendations on election security will be reviewed for 
declassification and possible redaction and, when that is 
complete, released to the American people so that they can make 
their own judgments about involvement and attempts to intrude 
into our system.
    Once again, I want to thank both of you for being here. I 
want to conclude our first panel. A two-minute break as we 
bring the second panel up.
    [Pause.]
    Chairman Burr. I'd like to welcome our second panel here 
today and I'll say to each of you, thank you for your 
willingness on a snowy day to either come to Washington, 
because I know some of you made the trip or to travel through 
this town that sometimes understands snow removal, sometimes 
doesn't. So it's always a crapshoot.
    Our second panel is comprised of: Jeanette Manfra; National 
Protection and Programs Directorate, Assistance Secretary for 
the Office of Cyber Security and Communications at the 
Department of Homeland Security. The only thing that's changed 
is ``Acting'' is no longer in front of that, and I'm glad for 
that.
    Jim Condos, President-elect of the National Association of 
Secretaries of States and Vermont Secretary of State. Jim, 
thanks for bringing this weather today.
    Amy Cohen, Executive Director of the National Association 
of State Elections Directors.
    And Eric Rosenbach, Co-Director of the Harvard Kennedy 
School Belfer Center for Science and International Affairs.
    I might add for the record that we also invited a 
representative of the Federal Bureau of Investigation to 
participate in today's hearing, but the committee's request was 
declined.
    You are the experts on cyber security and elections. And 
while we just received the big picture assessment, and we're 
going to rely on you to provide us a great deal more fidelity. 
Jeanette, I'd like you to provide some details on the services 
DHS is providing to states and local election officials and 
what additional resources DHS may need to provide these 
services comprehensively.
    Jim and Amy, I hope you'll provide a candid view from the 
states and from those on the ground who actually run elections. 
It's critical that we hear what states really need and whether 
all of this help from D.C. is proving to be valuable.
    Eric, the Belfer Center has done an in-depth look at 
states' cyber security posture and has run table-top exercises 
with election officials. And I look forward, very forward, to 
hearing your outside assessment of how the partnership between 
DHS and the states is working.
    In the interest of time, I'll end my remarks and go 
straight to the Vice Chairman. But when I recognize you, we 
will go Manfra, Condos, Cohen, and Rosenbach.
    Vice Chairman Warner. Well, thank you, Mr. Chairman. I just 
want to make two brief remarks. I think the first panel was 
very good, but I understand this is a collaborative 
relationship with the states and localities.
    But I do think, as Senator King has mentioned and I 
mentioned in terms of my State, there are enormous 
vulnerabilities. Based on the Hackathon of last summer, I made 
sure in Virginia that we took out voting machines that didn't 
have auditable paper trails. So, recognizing the collaboration 
particularly between the State and DHS--I'd love to have all 
your comments on this--how do we make sure that we 
appropriately noodge or perhaps we as policymakers, we have to 
call out states and localities who don't participate, who don't 
upgrade their systems, who don't realize the seriousness of 
this problem. Not in the way that will fracture the 
relationship between DHS and the states, but leave that perhaps 
to us or others.
    I'd also like to hear your comments on--we focused a lot on 
the states and localities itself. But there are clearly a whole 
host of vendors who manage voter files, who provide the 
equipment. How do we make sure, again, they are actually using 
best practices; and those that are not, that the states and 
localities who might hire those vendors are notified that they 
are not meeting standards of security that are appropriate?
    So those are the kind of questions I'm going to hope to 
drill down on. Thank you, Mr. Chairman. I look forward to your 
testimony, everybody.
    Chairman Burr. Thank you, Vice Chairman.
    Jeanette, the floor is yours.

  STATEMENT OF JEANETTE MANFRA, ASSISTANT SECRETARY, NATIONAL 
 PROTECTION AND PROGRAMS DIRECTORATE, OFFICE OF CYBER SECURITY 
    AND COMMUNICATIONS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Manfra. Thank you, sir. Chairman Burr, Vice Chairman 
Warner and members of the committee: Thank you for today's 
opportunity to testify, on this lovely D.C. spring day, 
regarding our ongoing efforts to assist with reducing and 
mitigating risks to election infrastructure.
    Before I discuss elections, however, I want to take a 
moment to thank Congress, Chairman McCaul and Ranking Member 
Thompson of the House Homeland Committee, Chairman Johnson and 
Ranking Member McCaskill, the Senate Homeland Security and 
Government Affairs Committee, and this committee in particular, 
for your long and continued support and legislation in granting 
DHS the authorities that we need to not only secure the 
integrity of our elections, but also to do our job in 
protecting Federal networks and critical infrastructure.
    These efforts highlight the importance of the creation of 
the Cyber Security and Infrastructure Security Agency, at DHS, 
which would see our organization, the National Protection and 
Programs Directorate, become a new agency under DHS. This 
change reflects the important work we carry out every day on 
behalf of the American people to safeguard and secure our 
critical infrastructure. Again, we strongly support this much-
needed effort and we appreciate Congress' action and look 
forward to becoming the Cyber Security Infrastructure Security 
Agency.
    Though I was appointed to this position in July of last 
year, I have spent the last decade of my career after leaving 
the Army to advance the Department's cyber security mission 
within the Department of Homeland Security. During my time at 
DHS, I have personally witnessed the commitment, dedication and 
tireless efforts of the men and women to secure Federal 
networks, critical infrastructure systems and most recently our 
election systems.
    During the 2016 elections, the Department used every 
resource based off of the information that we had to ensure 
that election officials were receiving the information we could 
provide them and the services we could provide them to secure 
their infrastructure.
    As cyber threats continue to evolve in times of calm and in 
times of crisis, our network defenders at DHS will never waiver 
in their duty to protect the homeland. And I'm honored to have 
the privilege of leading that organization today. I would like 
to publicly thank them for their service and their excellence, 
and I look forward to continuing to lead and serve alongside 
them.
    Since I last appeared before this committee, the National 
Protection and Programs Directorate at DHS has continued to 
lead an inter-agency effort to provide voluntary assistance to 
State and local officials. This inter-agency assistance brings 
together the Election Assistance Commission, the FBI, the 
intelligence community, NIST, other DHS partners and is modeled 
on our work with other critical infrastructure sectors. 
Importantly, it also depends on our partnership with the 
representatives on the panel, whether that's from academia, the 
National Association of Secretaries of State, or the National 
Association of State Election Directors.
    Since 2016, we have learned much from our State and local 
partners; and in the efforts we undertook to assist them in 
2016, we've worked to refine and improve our partnerships and 
our services. Securing the Nation's election systems is a 
complex challenge and a shared responsibility. There's no one 
size fits all solution. Our Nation's election systems are 
managed by State and local governments in thousands of 
jurisdictions across the country and they must remain that way.
    State and local officials have already been working 
individually and collectively to reduce risks and ensure the 
integrity of the elections they're responsible for running. As 
threat actors become increasingly sophisticated, DHS sands in 
partnership to support the efforts of these officials.
    Through these collective efforts, we've made significant 
progress by creating government and private sector councils who 
collaboratively work to share information, promote best 
practices, and develop strategies to reduce risks to the 
Nation's election system. The recently formed Election 
Infrastructure Information Sharing and Analysis Center, 
facilitates the sharing of near-real-time information about 
potential cyber incidents. Additionally, 38 states are 
receiving feeds of actionable cyber threat indicators provided 
by the Department.
    We are sponsoring up to three election officials in each 
State for security clearances. And while not all of them have 
submitted the paperwork, we have been able to grant security 
clearances to 21 individuals in 19 states.
    We have increased the availability of free technical 
assistance by reprioritizing resources that were previously 
dedicated to securing Federal networks to the priority of 
securing election infrastructure. And we will continue to offer 
those services, whether those are cyber security assessments, 
red teaming, intrusion detection capabilities, information 
sharing, incident response, or training and career development 
free of charge to all State and local officials.
    We will continue to collaborate, coordinate and support 
State and local officials to secure our election infrastructure 
for the 2018 primary, special, and general elections. Cyber 
actors can come from anywhere, internationally or within the 
U.S. borders.
    We are committed to ensuring a coordinated response from 
DHS and its Federal partners to plan for, prepare for, and 
mitigate risk to any threat to our critical infrastructure. We 
understand that working with the election stakeholders is 
essential to ensuring a more secure election.
    Our voting infrastructure is diverse, subject to local 
control and has many checks and balances. As we work 
collectively to address these and other challenges, the 
Department will continue to work with Congress and industry 
experts to support our State and local partners.
    I look forward to further outlining our efforts to help 
enhance the security of elections which are administered by our 
State and local partners. Thank you and I look forward to your 
questions.
    Chairman Burr. Thank you very much.
    Jim, the floor is yours.

      STATEMENT OF JIM CONDOS, VERMONT SECRETARY OF STATE

    Mr. Condos. Thank you. First, I'd like to just say thank 
you for this warm welcome with the weather outside. It makes me 
feel right at home. And just to give you a perspective, it was 
minus 11 on the first day of spring in Vermont.
    Chairman Burr. When your flight is canceled, I hope you'll 
hold us equally as----
    Mr. Condos. I don't have a flight now until tomorrow night.
    Good morning, Chairman Burr, Vice Chairman Warner, and 
distinguished members of the committee. Thank you for this 
opportunity to appear before you representing the Nation's 
secretaries of state, 40 of whom serve as chief State election 
officials in their respective states.
    My name is Jim Condos and I am the Vermont Secretary of 
State. I am also President-elect of the non-partisan National 
Association of Secretaries of State and a member of the 
Department of Homeland Security's new Election Infrastructure 
Government Coordinating Council. That's a mouthful.
    NASS President Connie Lawson of Indiana was not able to be 
here today, but I want to acknowledge her outstanding 
leadership in leading our organization. Our organization is 
comprised of members with strong and very diverse opinions. But 
when we speak for NASS, we speak with one voice.
    Voting is the very core of our democracy. We are in the 
2018 election cycle, with November's general election only 
eight months away. I want to assure you and all Americans that 
election officials across the states, across the country, are 
taking cyber security very seriously. While it is important to 
ask what really happened in 2016 and learn from it, we believe 
it is even more important for us to be discussing what lies 
ahead.
    The 21 states that were not notified until September of 
2017, one year after the supposed scans. No votes were changed, 
as you have heard. But let me be clear. Secretaries of state 
across this Nation are diligently working each day to safeguard 
the elections process.
    When former DHS Secretary Jeh Johnson announced the 
``critical infrastructure'' designation for election systems in 
January of 2017, our members raised many questions and 
expressed serious concerns about potential Federal overreach 
into the administration of elections. With the ``critical 
infrastructure'' designation in place, we are focused on 
improving communications between the states and with DHS to 
achieve our shared goal of election security.
    Under DHS Secretary Kirstjen Nielsen's leadership, we are 
now working well together. NASS is committed to facilitating 
this relationship. State and local autonomy over elections is 
our best asset against cyber attacks. Our decentralized, low-
connectivity electoral process is inherently designed to 
withstand and deter threats.
    States use many resources available to them to bolster 
cyber security. Some utilize resources provided by DHS, others 
use private sector security companies, and still others partner 
with colleges and universities.
    Mr. Chairman, in your press conference yesterday you and 
other Senators outlined cyber security recommendations. I would 
like to highlight that states are already implementing many, if 
not all, of the committee's recommendations, including in my 
own home state.
    In Vermont--and let me go to my Vermont home State--we 
completed a thorough review of our cyber posture back in 2014, 
and we completed both physical and cyber. In 2015, we 
implemented a new election management platform. Because the 
system was new and it was nearly designed, it included built-in 
cyber risk assessments.
    Some of the acknowledged best practices that we use in 
Vermont are: paper ballots, post-election audits, no internet 
connection of our vote tabulators, daily backup of our voter 
registration database, daily monitoring of traffic to our site, 
blacklisting of known problem or suspected IP addresses, 
additional penetration testing.
    We also have same-day voter registration and automatic 
voter registration. And we are planning, we're in the process 
of planning a statewide cyber security forum to be held in our 
State.
    We have no less than three levels of security between the 
outside internet and our cyber systems and they're monitored on 
a daily basis. We have joined the Multi-State Information 
Sharing Analysis Center, better known as MS-ISAC. We receive 
weekly DHS cyber hygiene scans, and we have met with both DHS 
and FBI contacts. We have also recently ordered an Einstein 
monitor to attach to our systems to help us monitor.
    Secretaries and their staffs are also working to secure 
more funding for improved cyber security, new voting machines, 
and to strengthen our existing election systems. These efforts 
have become much more challenging as election officials have to 
work now to counter cyber security in addition to our 
election's administration.
    To ensure the integrity of our systems, my colleagues and I 
do have a prepared ask for you. One of the most critical 
resources that Congress could provide to the states, is the 
remaining $396 million from the Help America Vote Act of 2002. 
It was allocated, but never completely appropriated. Meeting 
the ongoing demands for updated equipment and ongoing cyber 
security upgrades requires funding that the states simply do 
not have within their own budgets.
    I must say, the new and immediate funds are absolutely 
critical as we are now only eight months away from the November 
general election. If we do not receive this money until August, 
it's too late for this year. We need the money now.
    As election officials work to fulfil this commitment and to 
improve voter confidence, we ask Congress to fulfil that 
commitment. We ask that Congress, DHS and others help us 
improve America's confidence in our election systems by 
promoting State and local efforts in providing clear, accurate 
risk assessment.
    I want to again thank the members of this committee for 
holding this hearing and giving me this opportunity to speak to 
you on this important matter. On behalf of NASS, I look forward 
to answering your questions.
    [The prepared statement of Mr. Condos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Jim, thank you very much. I'm not going to 
speak for the Appropriations Committee and I haven't read the 
omnibus bill. But there is a sizable chunk of money. It matches 
about what you're mentioning.
    Mr. Condos. We appreciate that.
    Chairman Burr. Where that goes, I'll leave that up to the 
instructions of the appropriators. But I feel fairly confident 
that the committee, the appropriators and DHS are all on the 
same page on this one.
    Amy, the floor is yours.

     STATEMENT OF AMY COHEN, EXECUTIVE DIRECTOR, NATIONAL 
            ASSOCIATION OF STATE ELECTION DIRECTORS

    Ms. Cohen. Thank you, Chairman Burr, Vice Chairman Warner, 
and distinguished committee members, for the opportunity to 
submit this testimony on behalf of the National Association of 
State Election Directors.
    My name is Amy Cohen and I'm the Executive Director of 
NASED. NASED's members are the State election directors in all 
50 states, the District of Columbia, American Samoa, the 
Commonwealth of the Northern Mariana Islands, Guam, Puerto Rico 
and the U.S. Virgin Islands. Our members are the nonpartisan 
professionals who administer and implement election-related 
policies, procedures and technologies. And NASED's mission is 
to promote accessible, accurate and transparent elections in 
the United States and territories, which we do by sharing 
information and best practices. Since elections were designated 
``critical infrastructure'' in January 2017, our efforts have 
become more important than ever before.
    In 40 states, the secretary of state or lieutenant governor 
is the State's chief election official. And in the remainder, 
the chief election official is the executive director of a 
board or commission. Beyond differences in leadership and other 
obvious differences in policies, the states also differ in the 
way elections are conducted. In eight states, elections are 
conducted at the township level instead of at the county level. 
Wisconsin alone has 1,853 local clerks responsible for 
conducting elections, in addition to the State election office. 
I highlight these differences as a reminder of how complex the 
administration of elections truly is.
    Every State election official, though, is a planner. They 
have spent every day since the 2016 election learning how to 
improve for the future, and the ``critical infrastructure'' 
designation has given us access to resources many did not know 
were available previously. Now, approximately 15 months into 
the designation of elections as ``critical infrastructure,'' 
we've made great strides as a field.
    State election directors must communicate basic information 
to their voters to ensure that every eligible voter who wants 
to cast a ballot can do so. And election officials must give 
them confidence that their vote will then be counted as they 
intended. Effective communication with local election officials 
who serve as the boots on the ground in running elections is 
also paramount. States run regular trainings and provide 
information and resources year-round every year to make sure 
that local officials have access to the information, tools, and 
skills they need to do their jobs effectively.
    State election directors must also communicate with our 
colleagues in the Federal Government. Until 2016, this was 
primarily with the members and staff of the Election Assistance 
Commission, who provide an invaluable service to our field 
through their guides and best practices, informed by both 
qualitative and quantitative data.
    Communication with DHS was new to NASED members in 2016 and 
is an area where we have seen significant improvement. In 
October 2017, DHS, the National Association of Secretaries of 
State, NASED and local election officials convened the first 
meeting of the Government Coordinating Council as a mechanism 
for sharing information about elections infrastructure threats 
across State, local, and Federal Governments. Since then, the 
GCC has met several times by telephone and again in person at 
the NASS and NASED winter conferences. The executive committee 
of the GCC, which has representatives from NASS, NASED, local 
election official organizations, and DHS, meets every other 
week by telephone.
    The GCC voted unanimously in February to adopt goals and 
objectives for the elections infrastructure sector. Working 
groups are doing the challenging work of writing a strategic 
communications plan, to develop guidelines around 
communications, and of writing a sector-specific plan to 
formalize the strategic goals of the elections infrastructure 
sector for the next several years.
    In addition, the Elections Infrastructure Sector 
Coordinating Council was launched in December 2017 with 
representatives from private sector vendors and nonprofit 
organizations.
    The GCC and the executive committee of the GCC are critical 
to distributing information to all 50 states, the District of 
Columbia, and the territories, as well as disseminating 
critical cyber security information to the more than 8,000 
local election officials.
    The GCC also voted at the February meeting to formally 
recognize the Multi-State Information Sharing and Analysis 
Center as the elections infrastructure ISAC. While all 50 
states, the District of Columbia and the U.S. territories were 
members of the MS-ISAC prior to 2017, election officials were 
not privy to the information shared by the ISAC and thus could 
not act on any of the information shared about the 2016 
election.
    As of today, however, the EI-ISAC, which is free for 
election offices to join, counts 38 State-level election 
offices and more than a 100 local election offices as members. 
NASS, NASED and the executive committee of the GCC strongly 
encourage all State and local election jurisdictions to join 
and are developing a strategic outreach plan to make sure every 
one of our State and local election officials understands the 
benefits of participation and joins.
    DHS has also facilitated secret-level security clearances 
for State chief election officials, as well as additional 
election office staff, including State election directors. Our 
hope in doing so is to ensure that any future information-
sharing will not be hindered or delayed by the information's 
classification. As you are aware and have heard about this 
morning, processing for security clearances can take time, but 
we continue to make progress with DHS in this area.
    Finally, DHS hosted more than 60 election directors and 
staff, representing 43 states, D.C., and two territories, for a 
secure briefing with the Office of the Director of National 
Intelligence and the Federal Bureau of Investigation in 
conjunction with our February conference.
    It would be naive to say that we received answers to all of 
our questions, but the briefing was incredibly valuable and 
demonstrated how seriously DHS and others take their commitment 
to the elections community as well as to our concerns.
    There have of course been challenges, but we have taken 
incredible leaps forward in a relatively short amount of time. 
Since the November 2016 elections, states have hardened the 
defenses of their voter registration databases and other IT 
systems against intrusion. This has included taking advantage 
of free resources such as vulnerability and risk assessments 
from DHS, cyber security services offered by State branches of 
the National Guard, and utilizing services offered by other 
branches of State government.
    Several private sector vendors have made tools and 
resources available to State and local election officials 
providing additional defenses. The Belfer Center at Harvard and 
the Center for Internet Security have provided practical 
guidance and tools for State and local election officials to 
use to strengthen their cyber security posture. Election 
officials have long taken steps to build resiliency and 
redundancy into their systems, and all states are evaluating 
the steps they take in light of the cyber security threats we 
face today.
    Aging voting equipment has been at the forefront for 
election officials for years. The Presidential Commission on 
Election Administration report, released in 2013, highlighted 
the impending crisis in voting technology. The voting 
technology problem and its effect on cyber security is multi-
faceted. First, I mentioned earlier that states run their 
elections differently. Local election officials are strapped 
for resources and are sometimes reliant on vendors or 
contractors for IT support. This can make it difficult for 
local jurisdictions to make smart technology purchases and adds 
an additional layer of complexity to maintaining a defensive 
cyber security posture. Many are taking advantage of in-State 
academics or national resources, including those at the EAC, to 
make sure that purchases comply with best practices.
    Second, many jurisdictions purchased their current voting 
equipment with Federal funds received under the Help America 
Vote Act of 2002, meaning that the equipment and software often 
predate parts of our lives we now take for granted, such as 
smartphones. Without additional funding, jurisdictions cannot 
afford to purchase new technology. We're encouraged to hear 
that Congress may release some outstanding HAVA dollars in the 
omnibus appropriations bill.
    Third, a handful of states still use voting technology that 
does not have a paper record or a voter-verified paper audit 
trail. These states are reliant on the accuracy of their voting 
machines, because in the event of a recount their records only 
exist in the machine. To be clear, we have seen no evidence 
that voting machines or election results have been manipulated 
or compromised in any election. But election officials must 
remain vigilant.
    Understanding these risks is important, but we should not 
overlook the safeguards currently in place to protect the 
existing technology. Elections are decentralized. There are 
thousands of jurisdictions, hundreds of thousands of voting 
locations, and many more hundreds of thousands of voting 
machines. The diversity of equipment used and the sheer number 
of precincts and machines creates obstacles to a large-scale 
attack on voting equipment. Voting machines themselves are not 
connected to the internet, making them less susceptible to 
intrusion.
    And results released on election night are not the official 
results. Every State and every local jurisdiction for elections 
run at the local level conducts an official canvass of results 
several days after election day to complete the official tally 
of results. In addition, an increasing number of states are 
doing post-election audits and many more are considering risk-
limiting audits.
    In summary, the field of election administration has made 
great strides since the 2016 presidential election, and State 
and local election officials cannot do this alone.
    If 2016 taught us anything, it is that we need a whole-of-
government approach, with strong coordination and communication 
across the Federal, State, and local players.
    We appreciate this committee's recommendations released 
yesterday and are pleased that many of those are already 
underway in many states. Thank you for the opportunity to share 
NASED's thoughts and opinions with you, and I am happy to 
answer any questions.
    [The prepared statement of Ms. Cohen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Thank you, Amy for that testimony.
    Eric, the floor is yours.

  STATEMENT OF ERIC ROSENBACH, CO-DIRECTOR, BELFER CENTER FOR 
   SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD KENNEDY SCHOOL

    Mr. Rosenbach. Chairman Burr, Vice Chairman Warner, other 
distinguished members of the committee: Thank you very much for 
the invitation to testify. The committee is one of the very few 
bipartisan efforts to address threats to the integrity of our 
democracy right now, and your leadership is crucial to charting 
the course forward. As a former professional staff member on 
the Senate Intelligence Committee, I have great respect for 
your bipartisan approach to what you're doing and genuinely 
thank you and your hardworking staff for all the work you're 
doing and your service.
    Our response to Vladimir Putin's ongoing attempts to 
undermine the strength of American democracy will be a defining 
issue of our digital age. Putin's attacks are not limited only 
to our election systems. Recent reports from the Department of 
Homeland Security make clear that Russian military intelligence 
operatives continue to conduct the preparatory steps needed for 
a major cyber attack against our energy infrastructure, 
including pre-placing the same malware in the United States 
that they used to take down the electric grid in Ukraine, 
twice.
    Imagine, if you would, that during the Cold War we found 
out that Soviet military intelligence operatives had placed 
secret explosives that could take down the electric grid all 
around the United States. Would our leaders have stood by and 
debated the nature of the threat or would we act?
    Unfortunately, over the past three years and both 
Administrations our national response to Russian cyber and info 
attacks both against the United States and our allies has been 
too weak. America and democracies around the world need action 
and, given the current environment in Washington, the Senate 
Intelligence Committee will need to play a leading role in 
driving that action.
    In the summer of 2017, a little team up at the Harvard 
Kennedy School set on a mission with one primary goal: to do as 
much, as quickly as possible, to help lower the risk of cyber 
and information attacks on the 2018 mid-term elections. So this 
project, known as the Defending Digital Democracy Project, is a 
bipartisan initiative that I co-lead with Robby Mook and Matt 
Rhoades. And we're developing real-world practical solutions to 
try to defend against cyber and information attacks.
    It's a diverse team. We have technical experts, political 
operatives, public affairs ninjas, and a hardworking team of 
Kennedy School students who are working very closely with NASS, 
NASED and the Department of Homeland Security to support our 
project. They've been truly outstanding partners, including 
several secretaries of state, Mac Warner in West Virginia, 
Denise Merrill in Connecticut, and Alison Lundgren Grimes in 
Kentucky, all part of the team.
    Since then, our team has conducted field research in 34 
State and local election offices, observed the November 2017 
elections in three states, and conducted a nationwide survey on 
cyber security in 37 states and territories, and engaged State 
and local elections officials in a tabletop exercise at a 
national level three different times.
    Based on that research and our observation, we have 
released four different practical election-related security 
playbooks, including for political campaign staffs, local 
election officials, and two specific playbooks on incident 
response.
    Next week, up in Cambridge, Massachusetts, we'll host over 
160 State and local election officials from 38 states to run 
them through a series of crisis simulations that are structured 
to train and empower them to improve their cyber defenses and 
incident response capabilities, and to provide them with the 
tools to run these exercises back in their home states. The so-
called ``train the trainer'' exercise, a traditional military, 
Army way of doing things, we'll follow up then with a 
hackathon, where we sponsored a national competition for 
student teams from around the country to compete for three 
$10,000 prizes which will be awarded to the best developed tech 
and policy options to counter Russian information operations.
    Now, I would like to tell you a little bit about our 
observations of the states. Chairman Burr, you asked about 
that. And the bottom line is this: State and local election 
officials are on the front lines of the effort to defend 
against nation-state attacks on our democracy. They accept this 
mission admirably. Our team has always been impressed with 
their professionalism and dedication. But, that said, the 
states need more help. They simply are not equipped to face the 
pointy end of the spear of cyber attacks and information 
operations from advanced nation-states.
    One often underemphasized issue is that the states, along 
with the Federal Government and outside organizations, need to 
continue to develop the capabilities for public incident 
response to information operations. So not just the hacks, but 
along the lines of what Senator Rubio mentioned, an information 
operation trying to sow distrust in the outcome of the election 
even if a hack were not successful. One of the few real 
antidotes to aggressive information operations like the 
Russians regularly conduct is effective public communications 
about the true state of affairs.
    The work we've done at the Kennedy School is really just a 
small part of the assistance that the states need and deserve 
to defend themselves. They need extra help. Specifically, it 
will require a four-cornered effort an all-of-nation effort, 
not just government. There's a lot that people not in the 
government can do now.
    The first is the State governments, which I think you've 
heard a lot about and so I won't reiterate. Second of all, we 
need to pay attention to political campaigns. They're the soft 
underbelly of this system right now. Their cyber hygiene 
generally is not good, and the overall chaotic environment in 
which they operate is not conducive to good cyber security.
    Social media companies, who must accept that our 
adversaries will continue to manipulate their platforms unless 
they dramatically change their organizational culture and their 
operational paradigm.
    And finally, the Federal Government, which must better 
support State and campaign efforts, oversee social media, and 
lead in creating the credible national defensive posture equal 
to the cyber and information threats that our elections face.
    Thank you very much. I look forward to answering any 
questions you have about any of our research, and I promised 
your staff that I wouldn't go over five minutes.
    [The prepared statement of Mr. Rosenbach follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Eric, thank you.
    Mr. Rosenbach. Yes, sir.
    Chairman Burr. Thank you for your service on this 
committee. Senator Hagel would be proud of you, as we are.
    I would note that today we're highlighting one slice of the 
Russian effort into the U.S. democracy. It's the election 
process. When we've completed our investigation, which has been 
extensive, hopefully it will expose all of the portals that 
Russia used to sow chaos and societal chaos and everything else 
that they did.
    But you also mentioned a lot of things at the beginning 
that have not historically been on the plate of the Senate 
Intelligence Committee, that are now front and center, not 
because of the lack of interest of other committees, but 
because of the unique expertise of the staff on this committee 
and the interests of the members. And so we're juggling a lot 
of balls in the air right now.
    With that, I'd like to recognize Senator Lankford for the 
first round of questions.
    Senator Lankford. Thank you, Mr. Chairman.
    Thank you all for being here and the time you've dedicated 
to this already.
    Let me ask just, Mr. Condos, about the recommendations that 
this committee has made on trying to make changes for cyber 
security, whether that be systems that can be audited, whether 
that be--obviously being separate from the internet during 
voting times, attentive when there are updates for software 
even when you're not connected to the internet for those 
machines, having a way to be able to do risk-limiting audits, 
security clearances for individuals when they--so we have a 
point of contact with DHS so they can do rapid communication. 
Any of those--are any of those concerns to you or to your 
organization?
    Mr. Condos. Let me speak on behalf of personally and the 
State, not----
    Senator Lankford. Sure.
    Mr. Condos [continuing]. Not NASS on this, because we have 
actually not taken a formal position because we just barely got 
the recommendations. But let me just say that we have long 
believed that having paper ballots, having an audit--we've been 
completing audits since 2006 and to date we've not had any 
anomalies from those audits.
    In fact, the audit that we do now, that started in 2014, 
now we call it a 100 percent census because we do the entire 
set of ballots for a particular town. We do a series of towns, 
randomly picked, and we do the entire ballot bag for that town 
that were cast, and then we also do every race that's on that 
ballot from President on down.
    We believe that having audits is critical to this and we 
are completely in agreement with that. I think that some of the 
other recommendations that you have put forth are excellent 
recommendations. We're already implementing many of them in 
Vermont and will be--like for instance, we're adding two-factor 
authentication for our local towns. We do not have county 
government in Vermont. We go straight from the towns to the 
State, so we're looking now at putting two-factor 
authentication between now and probably May or June.
    Senator Lankford. Can I ask you if DHS has been proactive 
to be able to help your State over the past year in 
communication and ideas.
    Mr. Condos. So let me just say that I think there was a lot 
of trepidation between the states and DHS in the beginning, but 
over the last----
    Senator Lankford. When you say ``in the beginning,'' are 
you talking about that August 15th call?
    Mr. Condos. Well, I'm talking about from August 16th--
August 2016 to sometime last fall. Since that time we have 
really improved communications and we're working well together. 
You know, there's the obvious ups and downs that you have, but 
we are working well together, and I think that communication 
has improved tremendously.
    Senator Lankford. Has DHS been an asset to you?
    Mr. Condos. Yes. We do use the weekly hygiene scans. Many 
of the other products that they give, we've already done and we 
will continue to do. I don't want to leave the impression that 
just because we're not doing it with DHS, we're not doing it.
    Senator Lankford. No, I understand. They're a resource that 
will be available to you if you choose to use those.
    Mr. Condos. Correct.
    Senator Lankford. There is the concern that some of us have 
that if an individual State is attacked, that State identifies, 
I'm getting in some certain attack, and that information, 
whether it be the IP address or the type of malware or whatever 
it is, that the State picks up, if that's not shared with DHS 
there's not the opportunity for other states to also be able to 
check their system.
    How can we improve the trust level, that when a State 
identifies, I'm getting an attack that's unique, that they 
share that with DHS and so other election systems can also 
check for it?
    Mr. Condos. Well, let me explain what we've done in 
Vermont. When we see an anomaly, what we think of as an anomaly 
in our daily monitoring of our systems, if we encounter 
something like that, we will automatically count our FBI, DHS 
partners, and MS-ISAC to let them all know. And once we have--
they will tell us what they need from us and then we provide 
that to them so that they can look at it.
    But I definitely, I think where you were going is the fact 
that if one State is attacked, all states are attacked.
    Senator Lankford. Right.
    Mr. Condos. And that's the way we have to approach this.
    Senator Lankford. And one of the issues that we have is, if 
one State is attacked, the other states might have already been 
attacked, they just didn't pick it up and you did.
    Mr. Condos. Possibly.
    Senator Lankford. So it's exceptionally important that we 
get the chance to have that two-way communication going, again 
voluntarily. But it is good participation whether it's just to 
be able to make sure that we can help each other.
    You mentioned as well duplication in your voter rolls. You 
said you do that every single day, to be able to duplicate 
voter registration rolls?
    Mr. Condos. Yes, we back up our system daily. It's kept for 
a period of time before it's cycled out. So at any given point 
in time, we could always go back to that date and re-establish, 
and then we only have a small sliver that we have to 
authenticate after that.
    We also have same-day voter registration so nobody will be 
denied at the polls.
    Senator Lankford. Okay. I just want to make one quick 
comment and I want to yield back to the Chairman as well. Thank 
you for all the work. You've been in quite a few meetings with 
our team and with Homeland Security that Senator Harris and I 
have both seen you on oftentimes. You've done a lot of work on 
a lot of these issues, boots on the ground, and we do 
appreciate your daily work on this. You've had some long days 
with your team, being able to work through some issues, so I 
appreciate your work on it.
    I yield back.
    Vice Chairman Warner [presiding]. Senator Harris.
    Senator Harris. And I couldn't agree more with Senator 
Lankford. Miss Manfra, every day it seems like we're seeing you 
on one of these committees, so thank you for your work.
    Mr. Rosenbach, as everyone understands, achieving cyber 
security will be extremely difficult. In fact, some say we 
should--we're never going to actually achieve security, but we 
will try to do as best as we can. But there are no absolutes in 
this realm.
    So the concern I have is that I think that there's a very 
real chance that when we're talking about HAVA, which is the 
Help America Vote Act of 2012--2002, that it may be a 
simplistic approach to suggest that the HAVA grant program is 
the solution to election cyber security.
    One of the concerns that I have heard and I'd like your 
opinion about it, is that there is a very real chance that 
states could acquire a new batch of insecure systems--and Miss 
Cohen actually spoke a bit about that concern as well--because 
they just don't have the resources and it may be the technical 
resources or advice or support to make the best decisions about 
acquiring the best and most secure equipment.
    So what is your perspective about that? And should states 
be required also to use those funds only for cyber security 
improvements versus other needs they may have?
    Mr. Rosenbach. Yes ma'am. I think, to start with your idea 
and highlighting that risk mitigation in cyber needs to be much 
broader than just the technical cyber security issues. So you 
talk about an incident response plan----
    Senator Harris. Right.
    Mr. Rosenbach [continuing]. And leadership at the top. 
Vermont seems like a model in terms of a secretary of state who 
can talk about two-factor authentication and is doing all these 
things. That's what you want.
    Senator Harris. And he's at this table for that very 
reason.
    Mr. Rosenbach. Exactly, but that's a rare thing.
    Senator Harris. Yes.
    Mr. Rosenbach. And the states take this very seriously, but 
that level of knowledge is a rare thing.
    Senator Harris. Right.
    Mr. Rosenbach. So the money will do one thing, but it's 
leadership that's even more important, and rehearsing what 
happens when you do get hacked or if you don't get hacked, but 
the Russians manipulate your information, that is very 
important.
    I do think having outside technical expertise that has no 
vested interest can be helpful to the states in trying to 
determine maybe how to allocate resources. I don't think that 
you want to make it bureaucratic because we need to move fast 
and things are already bureaucratic enough in government. But 
some way to help the states I think would be appropriate.
    Senator Harris. And so, as you think about that, as 
Congress considers appropriating this money, do you have some 
thoughts about how we can make sure that grant recipients use 
it in the best way, the most efficient way?
    Mr. Rosenbach. Yes, ma'am. I think you definitely should 
appropriate it. There's no doubt about that. And a couple 
options would be something almost like the NIST framework, 
where it's an agreed-upon framework. You would never try to 
stipulate specifically what they should do because the 
diversity of systems is so great, it would never be exactly 
right. It would also change in two years. That broad type of 
approach, with some outside technical expertise, may be one 
option.
    Senator Harris. Assistant Secretary Manfra, do you agree 
that there's a certain type of election interference that we 
should be concerned about, that would target the so-called 
swing states or those jurisdictions within states that have 
been identified as perhaps making all the difference in terms 
of the outcome of a national election. I know we've talked a 
lot about the diversity and the number of jurisdictions that 
hold elections. But some perhaps are more pivotal than others, 
as we have seen.
    Ms. Manfra. Yes ma'am, thank you for your question. While 
our focus is on the security, not the political dynamics of 
elections, we do take a risk-based approach to everything that 
we do with critical infrastructure in terms of how we 
prioritize. So what we seek to understand is how would the 
adversary, if their end goal was to--whether that's to sow 
chaos and discord or to manipulate a voting process--what would 
be the most likely way that they would do that?
    So we would definitely include consideration of that 
scenario that you described as to how we would think about a 
risk-based approach to prioritizing, if that answers your 
question, ma'am.
    Senator Harris. It is, but so that we can just take it out 
of the theoretical, there's pretty much consensus about what 
are the so-called ``swing states'' and ``swing counties.'' What 
I really hope and would like to know is that you and DHS has 
identified those perhaps as being priorities, knowing that 
foreign adversaries, Russia for example, all they have to do is 
pick up the paper to figure out where they should target if 
they actually want to manipulate the outcome of the national 
election.
    Ms. Manfra. Yes ma'am, we would consider those priorities.
    Senator Harris. Great. And my understanding is that 
basically if a State election agency is hacked, you pretty much 
send out a hazmat team to get right out there on the ground, 
boots on the ground, and do whatever is necessary to help the 
State in terms of getting back up and also figuring out in a 
forensic way, maybe in an investigative way, what you need to 
determine in terms of who was responsible, who the perpetrator 
is, where the specific breaches are and so on. Is that correct?
    Ms. Manfra. Yes ma'am. There's two models. One would be 
where we know whether the State has--and this is applying our 
model that we use for all critical infrastructure and Federal 
networks to states. But one scenario where a State or an entity 
reports that they have had some type of unauthorized access and 
they voluntarily request our assistance, our priority then 
would be, yes, to deploy a team. Sometimes we can do it 
remotely, but we deploy a team, work with them to gain access 
to their system, and then our responders would help first 
identify the presence and how wide scale that presence is.
    We need to be careful not to evict them too quickly, 
because we want to understand completely how much of the 
network or the systems that they're on. Once we've identified 
that, then we work with the victim organization to remove the 
malicious actors from the system and then, importantly, help 
them get back up and running very quickly.
    In other scenarios where we have maybe intelligence or 
other information, where we think someone may have been a 
target, but we don't know, we do something that's called a 
hunt, and that is also voluntary, but we work with that target. 
Ideally, they would voluntarily let us connect to their system, 
and we attempt to search for any evidence of that adversary. 
Sometimes we find them; sometimes we find that they were 
effective, the entity blocked that potential intrusion.
    Senator Harris. And if I may, and I'm over my time, but all 
of that happens, all of that work happens, when and if you have 
been notified by the State, correct?
    Ms. Manfra. In the former case, it would require 
notification by the State. In the latter case, it would be 
usually something from the intelligence community, though it 
could be from the State or say from the MS-ISAC.
    Senator Harris. Okay. And--and, Mr. Condos, I think you 
would agree--that DHS is best able to do its job if there's 
that kind of notification and cooperation.
    Ms. Manfra. Yes, ma'am.
    Senator Harris. Thank you.
    Chairman Burr. Thank you, Senator.
    The Chair would recognize himself, then the Vice Chairman, 
and then members by seniority. If Senator Heinrich or Collins 
come back, we will work them in since this is their lead.
    Jim, let me ask you a simple question. When you leave here 
today, are you thoroughly convinced that the United States 
government does not want to take over the election process of 
states and localities?
    Mr. Condos. I am in that position right now.
    Chairman Burr. Okay.
    Mr. Condos. Yes.
    Chairman Burr. We have accomplished a lot based upon where 
we started.
    Jeanette, let me ask you. It seems it took a while for DHS 
to come to a solid estimate about the number--or a solid number 
about the number of states that were actually targets of 
Russian attention and activities. The scanning activity ran 
through the fall of 2016. What's your confidence level in that 
assessment?
    Ms. Manfra. What I would say, sir, is that, based off of 
the visibility that we had at the time, which has increased 
since 2016, but based off of the partnership with MS-ISAC, with 
states and the intelligence community, we are confident that 
that 21 number is accurate.
    Chairman Burr. I'll ask you a very broad question. Have you 
seen things running up to the 2018 election, activities that 
concern you that an adversary might be testing the systems?
    Ms. Manfra. Not at this time, sir.
    Chairman Burr. Okay.
    Jim, to you and Amy. State election officials reviewed with 
our staff two of the DHS conference calls with states. One was 
in August of 2016. What was shared with us was that states say 
about that call that they didn't understand why DHS was 
contacting them in August 2016; there was little context to the 
call or to any threat relayed. Is that what you hear from your 
members?
    Mr. Condos. I would say that in the August call, it kind of 
caught us out of the blue. We knew we were invited to this 
call, we were on the call, and when Secretary Johnson spoke to 
us about some of what was going on, we weren't sure what was 
happening.
    When he talked, when he spoke about the critical 
infrastructure, we really pushed back. I will say that we 
pushed back. Red states and blue states were pushing back 
because we were looking at potential for a Federal overreach.
    Chairman Burr. So when I suggested to him today that just 
the mere mention of State elections being under the critical 
infrastructure, that this was a passionate point for the 
states, I didn't understate that, did I?
    Mr. Condos. No, you did not. I will say, though, when 
Secretary Johnson actually declared, made the designation in 
January of 2017, it was not until July when we met in East 
Greenbush, New York, at the MS-ISAC Center, that we actually 
got a presentation on what critical infrastructure designation 
was going to be about. Up to that point, we still didn't--so 
almost a year later, we still didn't know what was happening 
until then.
    Chairman Burr. So I think we would all agree on this 
committee that communication was poor. Jeanette, you sort of 
inherited, one, the state of mind that they were in. Eric, 
you've had an opportunity to look at it as well. And you were 
tasked with, come up with a plan that solves this.
    In the September 17 call, DHS for the first time announced 
21 states had been scanned and that State election officials 
might not know their states were targeted. States told our 
staff that they felt shocked and waited for one-on-one calls 
with DHS to find out if they were one of the 21. Many then 
reported that they were surprised by additional lack of 
details.
    What's changed since then and what assurance can you give 
the states that not only we're on top of the number, we're 
confident of the number, and, more importantly, we got a plan 
in place?
    Ms. Cohen. Yes sir. Looking back on some of the lessons 
learned over the past couple of years, our policy has always 
been, in order to notify a target or a victim of a potential 
cyber intrusion, to prioritize communicating with that. In the 
partnership with the MS-ISAC, which all 50 states participate 
with and have sensors, the primary interlocutor, I guess we'd 
say, was usually the states' CIO for the MS-ISAC.
    So we prioritize per existing protocol notifying those 
victims. What we didn't fully appreciate at the time and 
through those multiple conversations in 2017 in particular, was 
that just by notifying that victim that didn't necessarily mean 
that that senior election official who's responsible for that 
overall administration received that notification.
    It was at their request that we undertake that broad 
notification in September. So while we did notify the potential 
targets or the victims when we saw the activity, it was 
notifying those senior election officials and giving them more 
insight.
    The other issue which is always a challenge in cyber 
incidents or targeting, is we don't always have perfect 
information. So we prioritize notifying a target even if we in 
the intelligence community don't fully understand what's going 
on, because, frankly, by having a conversation, by being able 
to deploy our incident response teams, it will help the 
intelligence community and DHS learn more about what's going 
on.
    So when we first notified in 2016, we didn't fully 
understand what was happening, who was actually targeting those 
states. We just knew that it was coming from suspicious servers 
and a company. So now what we have done is, working with the 
Government Coordinating Council and the representatives, is 
defining who are those points of contacts. The states provide 
those points of contacts at the State level, and we have the 
appropriate mechanisms to ensure that we get that information 
and.
    And again, we're not waiting for clearances. If there's 
information that we can't declassify, we will provide one-time 
read-ins to those organizations to ensure that, even if we 
can't declassify, we can provide them additional context, 
frankly, even if we're not completely sure at the time.
    So those are some of the things that we've improved over 
the past couple of years.
    Chairman Burr. Thank you for that.
    Eric, brief question, brief answer. As an outside entity 
looking at this process, what letter grade would you give us 
collectively on the progress that's been made based upon the 
threat that you saw?
    Mr. Rosenbach. That, sir, is a hard question. You know, 
this is what I would say. I would give you all B, and it's 
mostly----
    Chairman Burr. Not us, but collectively.
    Mr. Rosenbach. But I'm talking about the whole government. 
In particular, it's a B because DHS in particular over the last 
year has been working very hard to rebuild that trust with the 
states and with other organizations so that they can do better. 
And just working hard can overcome maybe not having a lot of 
capacity or, coming from DOD, having a $600 billion budget. 
DHS, they're not like that. But, it's not as good as it should 
be.
    Chairman Burr. I think we all agree we've got more to do.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Let me say I understand probably the concerns that were 
raised by the states when they got the call from Secretary 
Johnson. But I think history has shown that designation was 
correct, and I am appreciative of the recognition. Miss Manfra, 
you had to receive some of my concerns last June at the 
hearing, but the notion that we've worked through some of the 
security clearance issues and that there is this better 
communication, I want to commend your efforts.
    My first question is for you, Miss Manfra, and you, Mr. 
Rosenbach, and it's a bit of a speculative question. Try to 
answer fairly brief, though. Which is: We know how vulnerable 
now our systems were. I know that the Hackathon that took place 
last year, where virtually every machine was broken into fairly 
quickly--I had to really raise heck to make sure we changed out 
machines in Virginia before our election system.
    One of the things I've always wondered: With the 
capabilities that clearly Russia has and the level of 
sophistication of their cyber activities, the fact that they 
scanned 20 states and only broke into one. Would you speculate 
whether their goal was to actually go in and change voter 
totals in 2016 or whether it was just in a sense to leave 
digital dust that might then be interpreted as outside 
interference, that somehow could then be used to stir up 
dissension and the kind of concerns that Senator Rubio raised 
about his scenario, which I think was potentially very real? 
Either one of you want to try on that?
    Ms. Manfra. I could start, sir. I would say that what the 
Russians were trying to do, which we've talked about a lot, was 
sow chaos and confusion and discord. And I believe, while--and 
this is my opinion--that by scanning systems, they were looking 
for vulnerabilities, they were looking for weak points. And the 
good news is most of the states deflected it, and I think 
that's something that doesn't get talked about a lot. But you 
know, they scanned, they looked for weak spots, and the State 
systems deflected that.
    That doesn't mean that there aren't continued 
vulnerabilities. But I believe that's what they were likely 
looking for, is weak spots to get into systems.
    Chairman Burr. Mr. Rosenbach.
    Mr. Rosenbach. Yes, sir. I'd start by saying, I've been 
working in cyber and intel and on the Russians for almost 20 
years, and I just don't believe when someone tells me we know 
everything about what the Russians did or didn't do. So I want 
to be very clear. I'm not basing this on intel and it is 
speculation, but I have to be honest: I don't believe that 
there isn't more to the Russian story, and that they may not 
have penetrated more than we know right now.
    That's always been the case when I've seen these advanced 
Russian actors, and the GRU in particular, and just like we 
learned more about them being in the energy grid.
    So my fear is that, if you look at the Gerasimov doctrine 
and the way Putin is now recently re-elected, that this is all 
about something even bigger, which could be when there's an 
escalation of tensions and they know they have malware in our 
grid and they have malware in our election infrastructure, that 
there will be a threat and a type of coercion that advances 
broader national security interests.
    So I don't want to sound, you know, shrill, but that's my 
assessment.
    Vice Chairman Warner. I agree, and I think, again, one of 
the reasons why the very good work so many members on this 
committee have done in a bipartisan way to try to help 
alleviate this issue and lay out specific recommendations.
    One of the question I raised on the earlier panel and I 
want to raise again, Mr. Condos and Miss Cohen, is how do we 
make sure that your vendors--my understanding was that the 
Belfer study showed that over 60 percent of American voters 
cast ballots on a system operator owned by a single vendor. I 
think it was back in 2012, but there are still these large, 
large vendors.
    How do we ensure that, working with DHS, that they're up to 
security? Are you auditing that, that they're guarding your 
voter files in an appropriate way?
    Mr. Condos. Let me start by just saying that the simple way 
is that we build it into our contracts with the vendors. So we 
require them to meet NIST standards. If we're buying new 
equipment, it has to be EAC certified. So those are the ways 
that you can do that, is to get them involved in it. But then 
we also have our own independent security folks that will do 
penetration testing, will do risk assessments, to determine 
whether what we've got is what we hope to have to defend, as 
was pointed out.
    So I think many of the states, the idea of putting in stuff 
into the contract, requirements into the contract, I think that 
has changed over the last few years. When we first proposed it, 
we were told, oh, nobody does that. Then, now it's becoming 
standard, at least in our State for all IT contracts. So we are 
moving in that direction to try to protect ourselves.
    Ms. Cohen. I'd add that many of the changes that we've seen 
in the election technology space have been consumer-driven over 
time. And Secretary Condos' point is a good one, that as we 
educate State and local election officials to better understand 
what they're putting in their contracts and give them resources 
like the EAC, like the Belfer resources and others, to make 
sure that they're putting good things in their RFPs and in 
their contracts, we will start to see a shift in the vendor 
area.
    Vice Chairman Warner. My time has expired, but I would also 
commend my colleagues the work the Belfer Center has done, what 
Eric has done. On the question around campaigns, these are the 
ultimate start-ups and huge vulnerabilities. We obviously have 
a whole segment of our government, the Secret Service, that 
oftentimes protects candidates. I do think we're going to need 
best practices and think about how we can put at least best 
practices out there in terms of protecting campaigns, because 
this could be a next layer of vulnerability. Having been 
involved, and probably everybody up here on the panel being 
involved in campaigns, at least in the past, cyber security has 
probably been one of the last items you look at as you try to 
put together--and I commend your good work there.
    Chairman Burr. I'm just sitting here thinking. If you 
thought we saw pushback from State elections officials, I can't 
wait to see the pushback from campaigns.
    [Laughter.]
    But I would also agree that they are an extremely 
vulnerable part of our whole election process right now.
    Mr. Rosenbach. I think they're the most vulnerable. Quite 
frankly, it's very chaotic, resource constrained, all the 
things that lead to really poor cyber hygiene.
    Chairman Burr. I'm going to turn to Senator Blunt, but as I 
do that, the likelihood is that when we return from the Easter 
work period Senator Blunt will then be Chairman of the Rules 
Committee, where a majority of the Federal statute changes 
relative to elections will fall. So I thank Senator Blunt for 
being integrally involved in this process, because he will be 
integrally involved in the next generation of this as well.
    Senator Blunt. Well, thank you, Chairman. We'll see how 
that works out. If it does work out, we'll expect to see all of 
you back and all of you back when we actually look at 
legislation.
    I want to see if I can't cover a couple of topics with the 
whole panel. One was, you can probably tell--you were all here 
for the earlier testimony on notification and public 
notification. As you can tell, we've dealt with this in other 
areas before and have generally come to the conclusion that 
public notification was not necessarily helpful and generally 
not desired by the people you were encouraging to report in.
    What's your view of that topic of whether states and local 
entities are less likely, more likely, helped by some public 
disclosure that someone attacked your system. Or does that make 
it a different kind of decision when you report in what you 
report in and why you report in?
    So let's just start, Miss Cohen, with you. Your view of, if 
we made that or DHS made that, we required them to report when 
you reported to them?
    Ms. Cohen. State and local election officials balance the 
right to know and transparency with also impacting voter 
confidence in the system. I can't comment specifically about 
whether I think they should or should not make it public, but 
it is a difficult balance for all election officials because 
the public does have a right to know, as we've discussed 
throughout this hearing. But balancing voter confidence and not 
impacting people's confidence in their election system and the 
outcome is something that has to be taken into consideration.
    Senator Blunt. Mr. Secretary, what are you and your NASS 
colleagues likely to think about that?
    Mr. Condos. Well, I'll speak for myself. I won't speak for 
my NASS colleagues on that. But I think that I will say that, 
as Miss Cohen has just said, it's a balance between 
transparency and privacy, and I think we have to be careful 
about that. I do think that if some of our citizens' 
information was actually accessed, they deserve to know that.
    If it was just a target or a scan--and by the way, I do 
want to say that it is important that we use the right words. I 
think during that discussion about the 21 states, they we 
talked about targeted, scanned, hacked, breached; and it was a 
scan or a target, which is similar to a burglar walking up to 
your house and trying the doorknobs or looking through the 
windows. I think we have to be careful about how we use those 
words because they do matter.
    So I do think that there's some likelihood that there will 
be some public announcement if people's information was 
actually accessed, and I caution that we have to be careful. 
You also want the incentive to be on the states to notify their 
partners that things have occurred or may possibly have 
occurred. And you don't want to have it be a disincentive.
    Senator Blunt. Secretary Manfra.
    Ms. Manfra. I would agree with my colleagues. I think this 
isn't just an issue just for this sector. It's across all 
sectors. We very much would like them to voluntarily report 
incidents to us, particularly if we've published a document 
asking industry to look or State and locals to look for 
indicators of compromise, and let us know, because that just 
benefits everybody. It benefits the government, it benefits our 
defense.
    I would say, as far as publicly talking about it, I agree 
that individuals have a right to know when their information 
has been stolen or tampered with, and a lot of states have 
different laws governing that. I do think we always have to 
balance, as Ms. Cohen noted, the public confidence in our 
system.
    Also, as I mentioned before, often you know the fact of an 
incident, but you don't know everything about it, and you don't 
know what was taken, you don't know all these different pieces 
around who did it; and it's hard to convey a lot of that nuance 
publicly.
    So I know it's complicated, it's challenging. I look 
forward to continuing to work with you on this issue, but I 
guess I would prioritize notification to the Departments over 
public notification.
    Senator Blunt. I might point out here, too, that, in case 
anybody is paying attention to this, the information in your 
voter registration file usually is not nearly as extensive as 
the information in lots of other files. So your Social Security 
Number, things like that, that we've seen large segments of 
information be accessed improperly, the voter registration file 
doesn't have a lot of that in it.
    Let's get a final response.
    Mr. Rosenbach. Yes sir. I'll be real quick. I would say it 
matters most if it's a compromise. If it's a compromise, it's 
something different. That definitely requires disclosure to the 
Hill for certain, and I think you have to disclose it to the 
public. And here's why. You all know this. It's almost 
impossible to keep a secret, and when something like that comes 
out in a leaked way it undermines the public's confidence in 
the government and what they're doing. So, although it's very 
hard, I think you just have to err on the side of publicly 
communicating about these things and giving as many facts as 
possible and doing that over and over.
    Otherwise, you create a new seam for the Russians to try to 
get in and sow this disinformation.
    Senator Blunt. It would be another area where how you 
define ``compromise'' matters, too. Was information shifted 
around, people have reason to believe they're going to be 
directed to the wrong place, anything like that, as opposed to 
there was an attempt to get into this information, we are 
confident that attempt failed, but we want to report it because 
other entities might also be having the same kind of attempt.
    At some point--we don't have time today, but the whole idea 
of the audit system, the paper trail, all of those things and 
who is doing that, who's not, provisional voting, things that 
can give voters some sense that, no matter how many of these 
things go wrong, they on election day are going to be able to 
cast the ballot they intended to cast and without a government 
that stands in the way of doing that.
    Thank you, Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Manfra, to just recap a little bit from this morning, I 
talked with Secretary Nielsen about the 43 percent of Americans 
who vote with voting machines that researchers say have serious 
flaws, including backdoors, which would make them obviously 
susceptible to frauds and hackers. She claimed, to her credit, 
that this is now a national security problem. She said best 
practices are paper ballots. That's encouraging.
    I just want to go a little bit further, and I think this is 
an area that might be part of your expertise. So I've written 
to the major manufacturers of the voting machines to get basic 
answers to their cyber security practices. I asked, for 
example, if they employ cyber security experts, if there were 
audits and if they had ever been hacked.
    Most of the companies have just been stonewalling. So this 
is how almost half of America votes. There is essentially no 
accountability over these companies.
    My first question would be: If the voting machine companies 
do not employ cyber security experts and they don't have 
independent audits of their products, how confident are you 
that the election technology they sell to the states follows 
cyber security best practices?
    Ms. Manfra. Sir, I'll do my best to answer those pieces. 
While we've been talking a lot about our work with the State 
and local entities that administer our elections, we have also 
worked with the industry that supports election officials, most 
recently setting up a sector coordinating council, which--it 
allows us to use our critical infrastructure partnership 
authorities to have non-public conversations with industry on 
security issues.
    Those manufacturers and others are participating in that. 
Our partnership with them is more nascent than with the State 
and locals, as my colleagues have talked about the importance 
of State and locals and, frankly, businesses everywhere in 
ensuring that they require cyber security best practices for 
their vendors is important.
    I can't comment on the specific statistic. I'm not familiar 
with that statistic.
    Senator Wyden. You don't have to comment. The question is, 
though, ma'am, how confident are you as of this afternoon that 
the election technology that they're selling to the states 
follows cyber security best practices?
    Ms. Manfra. Sir, it's just hard for me to judge right now. 
I don't have perfect insight into the machines that the states 
buy. What I can tell you is that many of those manufacturers 
have submitted their equipment through a voluntary compliance 
process, run by the EAC and NIST and now DHS, that includes 
things like a code review--so they've voluntarily submitted 
those for compliance. And that many states use whether it's a 
voluntary voting standards, guidelines or similar mechanism for 
assuring the security of those systems, whether they mandate it 
or they do it voluntarily.
    I can also tell you that many of those machines that 
researchers say have vulnerabilities or other issues, that 
those can only be exploited when an individual has physical 
access to those machines. And election officials have other 
mechanisms that they've put in place to ensure that that 
physical access is not possible.
    Senator Wyden. Well, let me be----
    Ms. Manfra. Yes sir.
    Senator Wyden. Let me be specific on it. There have been 
press reports that that biggest company actually stipulated 
that remote access software be installed in the machine. Now, 
if that's correct--and that's why I very much want your agency 
to get back to us. I think my time is almost out. I would like 
to have you get back to me with a written response to my 
question, of how confident you are that this technology they 
sell to the states follows best practices.
    I heard about the voluntary certification and the like, 
because when you read press reports that the biggest seller of 
voting machines is doing something that violates Cyber Security 
101, is actually directing that you install remote access 
software which would make a machine like that a magnet for 
fraudsters and hackers and the like, you say, ``Boy, we've got 
to really beef up what we're doing.''
    The Secretary, to her credit, said,``Hey, this is a 
national security, you know, issue.'' She wants best practices, 
to include paper ballots.
    Can you get back to me with an answer within a week with 
respect to how confident you are of the technology they sell as 
following best practices?
    Ms. Manfra. Yes sir, although if I could add, remote access 
software is only useful to an attacker if there is an internet 
connection, which the states do not allow. But I will 
absolutely get back to you, sir.
    Senator Wyden. If the press reports are talking about it, I 
think we ought to at least get an assessment from you----
    Ms. Manfra. Yes, sir.
    Senator Wyden [continuing]. With respect to how confident 
you are.
    Ms. Manfra. Yes, sir.
    Senator Wyden. Thank you, Mr. Chair.
    Chairman Burr. Jim, you look like you maybe wanted to 
comment on that. Do you?
    Mr. Condos. Thank you. Going by the press reports, the 
press reports initially stated that there was remote access 
software, but I believe there was a follow-up from perhaps that 
software company that--or the machine company--that said that 
they don't use that. That was something that was done at one 
time, but is not any longer used.
    Senator Wyden. Well, let's just hear from Ms. Manfra and 
that would be in writing within a week, and we'll go from 
there.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chair.
    Mr. Rosenbach, I want you to be shrill. You said you don't 
want to be shrill. I want you to be shrill. Tell us in 30 
seconds about General Gerasimov.
    Mr. Rosenbach. General Gerasimov believes that the most 
powerful weapon you can use is information combined with----
    Senator King. He's a Russian general, right?
    Mr. Rosenbach. He was the second ranking person on the 
Russian general staff. I'll tell you a story about this. You 
know, I used to be in charge of cyber at the Pentagon and there 
was a time when we actually talked to the Russians and the guy 
I was talking to was a three-star, he was like the number three 
ranking guy in the Russian military.
    He was taunting me, because he said, ``You guys are so 
dumb; you're building a Cyber Command that doesn't even have 
information operations and information operations is the way 
that you take a country down.''
    Senator King. And they in fact hacked the Pentagon, they 
hacked the White House, they hacked the Joint Chief of Staff, 
they hacked the Democratic National Committee. I mean--I don't 
believe we're--you're grading on a curve, man. You said it was 
a B. I think you're giving us too much credit.
    Mr. Rosenbach. It's a B for effort, but that doesn't mean 
that we can sleep well.
    Senator King. Yes. Where I come from, effort doesn't count.
    Mr. Rosenbach. No, but it doesn't mean you can sleep well. 
I mean, the Russians, remember, they're very good, which means 
they have capability, and they're mean, and they have interests 
that are directly opposed to the United States, so they have 
motive. Those are the two things you look at.
    Senator King. Mr. Condos, welcome from Vermont. We in Maine 
think of Vermont as the West Coast of New England. We're glad 
to have you here.
    I understand that in Senator Lankford's bill originally 
there was a red team provision--you heard me describe that--
that would have had a hacking team at DHS or somewhere 
practice; and that the states furiously opposed this and that 
it was dropped out. Is that true?
    Mr. Condos. I am not aware of it being--I can't answer 
that. I don't know if that was true or not.
    Senator King. Do you think it would be a good idea?
    Mr. Condos. I think many of the states, if not all of the 
states, are going through penetration testing already, which is 
I think the same thing as what you're talking about, is 
professional folks who try to hack into your systems. We're 
already doing it. We've done it already in Vermont and we are 
continuing to do it as we go.
    Senator King. Well, I just hope it's being done at the 
highest possible level, because I understand there was a so-
called Hackathon last summer where every State or every State 
that they tried, they managed to penetrate. The results were 
devastating. So, I just hope that this is something that's 
really been taken seriously.
    I just worry. I have to say, I just have to worry that 
there's an overconfidence here in terms of the sophistication 
of our adversaries.
    Mr. Condos. If there was a hack last year that hit 50 
states, the 50 states don't know about it.
    Senator King. I don't know about 50 states. It was a number 
of states. I don't know if it was 50 states.
    Also, you mentioned that you thought one of the strengths--
and frankly, I thought this, too--of our system was that it was 
so decentralized. Do you know how many election system vendors 
there are, anybody?
    Mr. Condos. I do not know how many vendors there are.
    Senator King. Does anybody know?
    [No response.]
    My sense is that there are not very many, and that they're 
getting fewer, fewer and fewer all the time.
    Anybody know how many election systems have foreign owners?
    [No response.]
    No?
    Ms. Manfra. Sir, I don't have it with me, but we can get 
back to you.
    Senator King. Could you get that for us, yes?
    Ms. Manfra. Yes, sir.
    Senator King. That's just what I was going to ask you. If 
you could----
    Ms. Manfra. Yes, sir.
    Senator King [continuing]. Give us a report on how many 
vendors there are and what the ownership structure of those 
vendors are.
    I think a point that's been made that ought to be 
reiterated: They don't have to change votes to win; they just 
have to sow lack of confidence, and people lose confidence in 
the electoral system, they lose confidence in the democratic 
process.
    We haven't talked too much about registration lists or 
election night reporting. What if they hack into that system 
and the election night reporting turns out to be all wrong the 
next morning? That would be rather chaotic. So I think that's 
something.
    I understand the issues of transparency, but I think we 
have to understand that they don't have to actually get in and 
change votes in order to achieve the result that they're 
seeking.
    Mr. Rosenbach, do you agree with that?
    Mr. Rosenbach. Yes sir. I was just going to say they've 
done that. They did that in Ukraine. They hacked the web page 
used to publicly announce the final vote, used misinformation, 
and Ukraine was left in chaos for days afterwards trying to 
figure out who won. So we need to look at that playbook. They 
will do it to us.
    Senator King. So it could be--we're not necessarily talking 
about voting machines not connected to the internet. How about 
the lines from the Associated Press to CNN, because it may be 
that that may be a place where there could be mischief.
    Ms. Manfra. Yes sir. And I know we've focused mostly on 
voting machines, but that is not our exclusive focus. We're 
concerned about the entire process, as Secretary Nielsen 
outlined, everything from registering to the final 
certification of the vote.
    And as former Secretary Johnson talked about, the 
Associated Press engagement. We remain focused and thinking 
about if an adversary is trying to undermine confidence, what 
are the ways to do that? We've published best practices on 
voter registration systems. We've worked with states on 
everything from voting machines to election management systems, 
which can include tallying, how we secure the secretary of 
state website, how we think about unofficial election night 
reporting, how we think about crisis communications, if there 
is misinformation on the day of an election or immediately 
following.
    So we are trying to take a very holistic approach and not 
just thinking about voting machines. In fact, using this risk 
based approach to it and thinking about the difficulty in 
actually trying to manipulate a vote itself is why we 
prioritize engagement on those systems that are connected to 
the internet, like voter databases and others, that could cause 
that misinformation issue.
    Senator King. Thank you.
    I know I'm out of time, but, Mr. Rosenbach, yes or no: Do 
you agree with the contention that we, this country, aside from 
all of these defensive measures, needs to develop a cyber 
deterrence strategy in order so that our adversaries know that 
there'll be a price to be paid for these kinds of incursions?
    Mr. Rosenbach. Yes sir. I could not agree more strongly at 
all.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you Mr. Chairman.
    Secretary Manfra, Senator Heinrich and I wrote a letter to 
the Department asking specifically whether or not you needed 
new statutory authority or funding in order to help State 
election agencies and ensure the integrity of our elections 
systems and the voting process. I personally am surprised that 
the Department has not been more proactive in that area in 
submitting requests to the Congress.
    What is your answer to that question? Does DHS need 
additional authorities or additional funding in order to assist 
states and ensure the integrity of our voting systems?
    Ms. Manfra. Yes, ma'am; thank you for the question. On the 
authorities piece, we have the authorities we need right now to 
do our job. Thanks to the work of this committee and the 
Homeland Committees, frankly, over the last few years, we have 
very broad authorities that we can apply.
    We're continuing to build the capacity and the capability 
to fully execute those authorities. We have reprogrammed money. 
We have reprioritized money. That does mean that we have had to 
lower the prioritization of other entities receiving our 
services, whether those were Federal or other critical 
infrastructure, but we felt it was appropriate for the risk. We 
have spoken with appropriators and others to ensure that we do 
have the resources that we need to continue to prioritize 
elections in addition to our other missions.
    Senator Collins. Well, you certainly need to prioritize 
elections, but you also have to be cognizant of other critical 
infrastructure such as the power grid and natural gas 
pipelines. So more specifically, are you going to and have you 
requested additional funding to ensure the integrity of our 
elections?
    Ms. Manfra. Yes, ma'am, we have spoken to the appropriators 
and requested additional.
    Senator Collins. And how much additional funding have you 
requested?
    Ms. Manfra. Approximately $25 million.
    Senator Collins. Well, I would note, Mr. Chairman, that I 
believe the bills that many of us have co-sponsored called for 
far more funding than that, like $386 million; and I know 
you've worked hard to get it into the omnibus bill.
    Secretary Condos, I apologize for being out for part of 
your testimony and much of the Q and A due to another 
commitment that I have. It's my understanding that, at least 
until recently, you've been pretty disappointed with the level 
of communication between the Department and your office. I'm 
curious whether you're one of those lucky 21 of the 150 State 
election officials who has received a security clearance.
    Mr. Condos. First, let me say yes, I have received my 
clearance, so I'm fully cleared at this point.
    Secondly, I will say that I'm not sure that that's being 
lucky or not.
    Senator Collins. I was being facetious actually.
    [Laughter.]
    Mr. Condos. But I think that the communication levels 
between the states and Department of Homeland Security have 
improved greatly, specifically in the last six months, and I 
think we're on the same page and we're working to secure our 
election systems.
    Senator Collins. Finally, let me ask you: State election 
officials have expressed apprehension about the risk that being 
too public about the threat that we face might provoke exactly 
the impression that they're endeavoring to dispel, that is, 
that the Nation's voting systems are insecure and subject to 
compromise, and thus may help the Russians and other foreign 
adversaries achieve their goals.
    I would note, to counter that, that when the French and the 
Germans made very public what the Russians were trying to do in 
their elections, it had a beneficial impact on the public, and 
the public was much more weary of fake news stories or other 
issues.
    In your view, how do we strike the right balance for public 
communications concerning threats to our election 
infrastructure?
    Mr. Condos. As far as the threats themselves, I think that 
we should be communicating with the public to let them know 
what's going on. I will say that in our State we are right now 
preparing for an early April cyber summit that we're going to 
do in Vermont for the media, for the public, for our 
legislature, so that they are fully aware of what is going on 
and where we are going and how we are set up to fend off in the 
attacks.
    I think it's also very important to know that the bad 
actors that tried to hack us yesterday are going to try a 
different way today and they're going to be different tomorrow. 
They evolve probably--not probably. They evolve far quicker 
than any government can set up. So what you need to do is make 
sure that you have the protocols in place, that you have the 
processes in place, and that you have the defenses in place, in 
hopes to be able to fend those off.
    No computer, no computer, is safe from a hack. Every 
computer can be hacked if it's out there. What you want to do 
is make sure you have the proper defenses in place.
    Senator Collins. Thank you.
    Mr. Chairman, thank you, and Vice Chairman, for this 
excellent hearing. My final message to DHS is again to stress 
the urgency. Everyone seems focused on the November hearings. 
We're having elections right now. We're having the by-
elections, we're having special elections, we're having 
primaries coming up now. We can't wait. We can't just be 
focused on November.
    Thank you Mr. Chairman.
    Chairman Burr. Thank you Senator Collins.
    We have exhausted the questions. I'm going to turn to the 
Vice Chairman briefly.
    Vice Chairman Warner. I want to first of all thank the 
panel. I want to echo what Senator Collins has said, but I do 
think, echoing what has Eric said, there's been some progress. 
At least there is a recognition of how significant it is.
    I think in the omnibus, because of the work frankly that 
has been done by members on this committee, that some of the 
resources that our State partners are looking for will be 
there. We're going to want to see regular milestones on how we 
move forward on that.
    I want to echo what Senator King has said. We've spent a 
lot of time in closed sessions on this, and that is the need 
for our country to have an articulated cyber doctrine. I think 
that's going to raise a lot of tough questions. I think it's 
going to raise questions about where does the responsibility 
lie to report and how far down does it go.
    It may raise questions around the whole question of 
software liability, which has been an area that has been not 
talked about for years. But in this new realm with the level of 
vulnerabilities we have, it may have to be explored.
    Again, I know I gave Secretary Manfra some challenging 
times last year, but this question, not just with election 
security, but across the government, of the slowness of getting 
security clearances. We had a good hearing on this again 
yesterday. We had a public hearing a couple of weeks back. This 
just has to be a higher priority. We're 700,000 in arrears. 
We've got only a few of the election security officials. I 
would argue, frankly, we need Fortune 1,000 chief security 
officers to have security clearances as well. So a lot of work 
to be done.
    I do want to just close before I turn it back to the 
Chairman, though, and not all of the members are here, but 
thank all of those members particularly from both parties who 
have worked so diligently on putting together a legislative 
effort that I'm proud to co-sponsor, that I think shows the 
kind of commitment of this committee to not only investigate 
looking backwards, but to also try to lay out some solutions 
sets going forward.
    I would point out again, yesterday at the press conference 
we had on this we had virtually every member of the committee 
attending, and that's a credit to the good work of a lot of 
folks on this committee.
    With that, thank you Mr. Chairman.
    Chairman Burr. I thank the Vice Chairman and, more 
importantly, I thank this panel. You have provided us some 
great insight, not just today, but on an ongoing basis, and 
we're grateful for that.
    I will note at this time that the Lankford-Harris 
legislation is not legislation from this committee, but it is 
important legislation. And there's others out there, and 
Senator Blunt and probably Government Oversight will 
jurisdictionally have pieces of it. I have joined Senator 
Warner in co-sponsoring the legislation now that we've finished 
this portion of our investigation.
    I want to thank each of you for being here. In 2016, states 
faced a threat they never expected to confront: a hostile 
nation seeking to invade networks essential to the functioning 
of our democracy. While our collective insight is still limited 
and based in large part on states' self-reporting when they saw 
a problem, the committee has found that the actual damage was 
limited. No votes were changed and only one State reported an 
actual penetration of voter registration database.
    Still, given the capabilities and the intent of Russia and 
other potential cyber adversaries, the lack of resources 
available to most states, the committee remains concerned about 
potential future attacks. States should not be asked to stand 
alone against a nation.
    We heard today from DHS how they learned, course-corrected, 
and have become a true partner with the states. We commend you 
for that. DHS needs to continue to rise to the challenge, with 
more resources if needed; and they need to tailor their 
assistance to where the State needs are.
    We've heard from NASS and NASED how the states feel about 
suddenly being in the cross-hairs of a hostile foreign power. 
We've also heard what states need to do to secure their 
election systems. Our witnesses lined up today made clear the 
strength of decentralized vibrant election systems at the State 
and local level, paired with capability and resources at the 
Federal level.
    However, we also need to have in place a solid deterrent, a 
deterrent to activities like this in the future. Any hostile 
power who seeks to undermine the fundamental structures of our 
democracy should be prepared to pay a hefty price.
    The close of this hearing concludes chapter one of our 
committee's investigation. I believe we've shown through our 
work today and over the past year that these issues go beyond 
party politics. We may disagree on some things, but we all 
agree on this committee that we must take steps to ensure 
elections are secure. We've investigated and uncovered the full 
scope of a sobering threat. We now hand this over to the Rules 
and the Government Affairs Committee to consider legislative 
approaches within their jurisdiction.
    I'd also like to take a moment to thank the committee staff 
for their work. The staff involved in this effort has worked 
tirelessly with few days off over the last 14 months in a 
politically charged and demanding environment. They are 
talented, they are professionals, and they are focused, and 
they have done outstanding work for the committee and, more 
importantly, for the American people. While their names won't 
be on the report and probably and hopefully will never be 
released publicly, they should know just how much we appreciate 
their hard work and how beneficial this has been to states, 
localities, and to the American people.
    Once again, thank you for your testimony today. This 
hearing is adjourned.
    [Whereupon, at 12:37 p.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
